<html>
<title> - AIR QUALITY ISSUES IN THE COACHELLA VALLEY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
               AIR QUALITY ISSUES IN THE COACHELLA VALLEY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 12, 2004

                               __________

                           Serial No. 108-61

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
91-577PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
  Vice Chairman                      BOBBY L. RUSH, Illinois
ED WHITFIELD, Kentucky               ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               ALBERT R. WYNN, Maryland
HEATHER WILSON, New Mexico           GENE GREEN, Texas
JOHN B. SHADEGG, Arizona             KAREN McCARTHY, Missouri
CHARLES W. ``CHIP'' PICKERING,       TED STRICKLAND, Ohio
Mississippi                          DIANA DeGETTE, Colorado
VITO FOSSELLA, New York              LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Energy and Air Quality

                      JOE BARTON, Texas, Chairman

CHRISTOPHER COX, California          RICK BOUCHER, Virginia
RICHARD BURR, North Carolina           (Ranking Member)
ED WHITFIELD, Kentucky               ALBERT R. WYNN, Maryland
CHARLIE NORWOOD, Georgia             THOMAS H. ALLEN, Maine
JOHN SHIMKUS, Illinois               HENRY A. WAXMAN, California
  Vice Chairman                      EDWARD J. MARKEY, Massachusetts
HEATHER WILSON, New Mexico           RALPH M. HALL, Texas
JOHN SHADEGG, Arizona                FRANK PALLONE, Jr., New Jersey
CHARLES W. ``CHIP'' PICKERING,       SHERROD BROWN, Ohio
Mississippi                          BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              KAREN McCARTHY, Missouri
STEVE BUYER, Indiana                 TED STRICKLAND, Ohio
GEORGE RADANOVICH, California        LOIS CAPPS, California
MARY BONO, California                MIKE DOYLE, Pennsylvania
GREG WALDEN, Oregon                  CHRIS JOHN, Louisiana
MIKE ROGERS, Michigan                JOHN D. DINGELL, Michigan
DARRELL ISSA, California               (Ex Officio)
C.L. ``BUTCH'' OTTER, Idaho
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Crites, Buford, Chairman, Energy and Environmental Resources, 
      Coachella Valley Association of Governments................    17
    Haber, Matt, Acting Deputy Director, Air Division; and Larry 
      Biland, Specialist, Environmental Protection Agency........    19
    Kibbey, Edward, Executive Director, Building Industry 
      Association of Southern California, Inc., Desert Chapter...    27
    Kirk, Tom, Executive Director, Salton Sea Authority..........    11
    Signorotti, Vince, Vice President, Real Estate Assets and 
      Community Relations, Midamerican-CalEnergy.................    34
    Taylor, Joan, Conservation Chair, Tahquitz Group, Sierra 
      Club, San Gorgonio Chapter.................................    24
    Welton, Jeff, Senior Vice President, Wintec Energy...........    30
    Wilson, S. Roy, Riverside County Supervisor..................     7
Additional material submitted for the record:
    Schade, Theodore D., Great Basin Air Pollution Control 
      District, prepared statement of............................    60

                                 (iii)

  


               AIR QUALITY ISSUES IN THE COACHELLA VALLEY

                              ----------                              


                        MONDAY, JANUARY 12, 2004

                  House of Representatives,
                  Committee on Energy and Commerce,
                    Subcommittee on Energy and Air Quality,
                                                    Palm Desert, CA
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the Civic Center Council Chamber, 73-510 Fred Waring Drive, 
Palm Desert, California, Hon. Joe Barton (chairman) presiding.
    Members present: Representatives Barton, Whitfield, 
Shadegg, Buyer, and Bono.
    Staff present: Mark W. Menezes, majority counsel; Bob 
Meyers, majority counsel; Andy Black, policy coordinator; Peter 
Kielty, legislative clerk; and Michael L. Goo, minority 
counsel.
    Mr. Barton. The subcommittee will come to order. My name is 
Joe Barton. I am the chairman of the Energy and Air Quality 
Subcommittee of the Energy and Commerce Committee of the House 
of Representatives. Congresswoman Bono is a member of this 
subcommittee, and formally requested several months ago that a 
field hearing be convened in her district on the subject of air 
quality issues around the Salton Sea.
    I'm very happy to affirm the request that we conduct such a 
hearing, and we're going to do that today. It's going to be a 
little bit unusual in that we don't have a table large enough 
at the front for all our panelists to sit at, so when it comes 
time to conduct the formal part of the hearing we'll ask each 
panel member to step forward, give their oral testimony, and 
then after each panelist has done his testimony or her 
testimony then we'll ask questions from the podium and direct 
them to specific people. The auditorium is not so large that we 
cannot hear without the microphone or, perhaps, we can move the 
microphone around.
    But, before I give my formal opening statement, I want to 
recognize the congresswoman from, I believe, the 44th District 
of California, Congresswoman Mary Bono, for any opening remarks 
that she wishes to make, and then we'll begin the hearing.
    Congresswoman Bono.
    Ms. Bono. Thank you, Mr. Chairman. Actually, it's the 45th 
now.
    Mr. Barton. 45th.
    Ms. Bono. It was the 44th before redistricting, California 
finished that a little bit earlier than Texas.
    But, I would like to first of all welcome my colleagues to 
my district. It's hard to believe on a day like today that air 
quality is an issue, it's such a glorious day outside. And, my 
colleague from Indiana is especially thankful to be here, I 
know it's probably 20 below or something at home for him. But, 
I would really like to welcome all of you and the staff who 
have traveled to Palm Springs from Washington to hear about 
this important issue.
    And, sort of it's a reverse hearing for me, I'm really 
hoping most of all to enlighten my colleagues about the 
problems we face especially surrounding the Salton Sea.
    Okay, with that, Mr. Chairman, a special than k you also 
last night for attending the Palm Springs International Film 
Festival Gala. Every night is not like that in Palm Springs, 
believe it or not, but it was, indeed, a big honor to have you 
attend. So, thank you, and I'll yield back.
    Mr. Barton. We have one of those every Sunday evening in 
Ennis, Texas. It was kind of routine for me to dress up in a 
tuxedo and rub shoulders with Kevin Costner and Mary Hart, you 
know. Actually not. I kind of felt like J.R. Ewing in Dallas 
when I walked in, with all the glitter and glamour. But, the 
most glamorous person was you and your husband, or couple, you 
all were great.
    I want to welcome everybody to today's field hearing. I 
want to thank Congresswoman Bono again for her gracious request 
that we come out and hear this issue. I want to thank the city 
of Palm Desert for allowing us to use their City Council 
Chamber. Do we have any members of the Council here? We want to 
thank you, sir. Tell the mayor we thank--I assume it's a he, 
but it could be a she, I want to thank the mayor for allowing 
us to be here today.
    Without objection, the subcommittee will proceed, pursuant 
to committee rule 4E which governs opening statements by 
members, and the opportunity to defer them for extra 
questioning time. What this means is, for those of you who 
don't follow CPAN in Washington, if a member wishes to make an 
opening statement we allow them to speak for 3 minutes. If they 
choose to defer that, then we give them an additional 3 minutes 
for questions in the question period.
    Some of our hearings in Washington, we may have 15 or 20 
congressmen and women at the hearing, so that extra 3 minutes 
does come in handy. I don't think that's going to be a problem 
here today.
    Hearing no objection, prior to the recognition of the first 
witness for testimony, any member, when recognized for an 
opening statement, may completely defer his or her 3 minute 
opening statement, instead use those 3 minutes during the 
initial round of witness questioning.
    The Chair is going to recognize himself for an opening 
statement.
    For those of you again who don't follow what we do in 
Washington, the chairman doesn't have a time limit on opening 
statements. I can talk for an hour and they couldn't do 
anything about it. I won't do that today, but I'm not limited 
to the 3 minutes, just in case any of my subcommittee members 
don't remember that.
    Today we are going to turn our attention to this area, 
which includes the Palm Springs area and the nearby Salton Sea 
area. It's very clear from just my limited time spent here that 
this is a largely desert area and it's very windy. I know this 
area has particulate matter compliance issues. In my opinion, 
some of these compliance issues would be difficult for our 
creator to solve, much less humankind.
    On top of this is the unique status of the Salton Sea, 
which is shrinking and will continue to shrink I am told. 
Members of the subcommittee have long heard Congresswoman Bono 
call attention to the growing problems caused by reduced flows 
of water into the Salton Sea.
    Previous hearings by other committees and subcommittees 
have focused on the water issue directly. This subcommittee has 
jurisdiction over Federal air quality issues, including those 
caused by the shrinking of the Salton Sea. We recognize that 
there is no perfect answer for this problem, and that there is 
no consensus on what should be done.
    Congresswoman Bono is right to raise the issue with 
Congress, and to use our subcommittee to encourage all people 
involved to directly focus on these issues.
    The area is experiencing significant growth in housing and 
transportation. Meanwhile the area will also have to face 
reduced water transfers. That can make it one of the dustiest 
places in the Nation. The Palm Springs area has great leaders 
in renewable and clean energy. Some of them have testified 
before my subcommittee within the last year on your bus program 
here in the area. You also have geothermal production from the 
Salton Sea. You have a great wind farm just outside your city 
limits, and as I just said, you have natural gas vehicles in 
your public transportation fleet.
    I'm pleased that we can spend some time learning about the 
local air quality issues, and again I want to thank 
Congresswoman Bono for her efforts in getting us out here.
    Now I'm going to recognize in order of seniority members of 
the subcommittee to give an opening statement. Our first member 
is Mr. Whitfield from Kentucky. Do you wish to make an opening 
statement?
    Mr. Whitfield. Mr. Chairman, thank you very much. I'll just 
make a few brief remarks, recognizing that I give up my 
additional time on questions, but I'm delighted to be here in 
the Coachella Valley area in Congresswoman Bono's district.
    Those of us from other areas are quite interested in 
developments taking place in this area, because all of us in 
our districts have areas that are in non-attainment on ozone 
issues, as well as particulate matter issues, and it's nice to 
visit other areas of the country to see what common threads 
there are that can help us address some of these very 
significant issues.
    Many of you may be aware that in the near future our 
committee will probably be taking up the clean air 
reauthorization act, and so I think the more hearings we have 
like this the more knowledge we are going to have to be more 
effective in dealing with those issues.
    So, Mr. Chairman, I thank you for having this hearing in 
Mary Bono's district, and I look forward to the testimony.
    Mr. Barton. Does the gentleman from Arizona, Mr. Shadegg, 
wish to make an opening statement?
    Mr. Shadegg. I do, Mr. Chairman.
    Mr. Barton. The gentleman is recognized.
    Mr. Shadegg. I will also be brief, but I want to begin by 
thanking my colleague, Ms. Bono, for requesting this hearing, 
and by thanking you, Mr. Chairman, for holding the hearing.
    There are a number of issues that affect air quality that 
are different in the west than in the east, and yet in 
Washington, DC, the debate focuses on the problems of the east. 
And so, I think it's extremely important that we hold a hearing 
in the west and look at how, in fact, different some of the 
issues are here in the west than in the east.
    My congressional district is in Phoenix, Arizona. We face a 
serious problem with PM<INF>10</INF> and also with ozone, and 
the parallel between our air pollution problems in Maricopa 
County and the greater Phoenix metropolitan area are very 
similar to those we have here.
    Back east, a lot of the ozone pollution is caused by 
NO<INF>X</INF> emissions from--our's is caused by 
NO<INF>X</INF> emissions from mobile sources, whereas in the 
east we face Nox emissions from electricity generation and 
heavy industry. So, there again, there is a distinction between 
the problems we face here in the west versus those that are in 
the east.
    There are two specific issues that I care the most about in 
this hearing and that are of great concern, and one of those is 
the PM<INF>10</INF> particulate matter issue of an arid region. 
That is a problem that we face in Maricopa County and the 
Phoenix area, and I'm looking forward to the testimony of Matt 
Haber on those issues here.
    I'm also particularly interested in the effect of the 
Salton Sea on air quality here in the area, because it seems to 
me that's a repeating problem, and we are going to hear about 
Owens Lake and Mono Lake and the issue with regard to air 
pollution caused by, not only the draining of those two lakes, 
but the potential draining of the Salton Sea. There are 
parallels to other lakes that may be drained as the result of 
the consumption of greater percentage of the water resources we 
have here in the west.
    So, I very much appreciate you holding this hearing, Mr. 
Chairman. I look forward to looking at the ozone and 
PM<INF>10</INF> issues, and I'm anxious to hear the testimony 
of our witnesses.
    Mr. Barton. I thank the gentleman from Arizona.
    We now want to recognize the gentleman from Indiana, the 
Honorable Steve Buyer, for an opening statement that he might 
wish to make.
    Mr. Buyer. Thank you, Mr. Chairman.
    I think it is extremely valuable to all of us whenever we 
can have field hearings across the country, and Mr. Shadegg is 
right, air quality issues are different depending on where you 
are in the country. We all seem to define air quality 
subjectively.
    The only time I had ever heard the Salton Sea was from 
Sonny Bono back in 1995. I didn't even know what it was. And, 
it was an issue that he was very passionate about, and Mary 
shared that same passion.
    But, when you are in Indiana, and you also then grew up in 
parts of the southeast, what do you care about the Salton Sea, 
to be very honest with you.
    But, the committee, we have an interest in the air quality 
of a country. So, for Mary Bono, she is a very talented member 
of the committee and can be very persuasive, and persuasive 
meaning when she has an issue she's never going to let it go, 
and she's always going to bring it up in their conversations. 
And, I've been privileged to serve her, not only on Armed 
Services and Judiciary, but now Energy and Commerce, so I know 
her persuasive abilities.
    I'm pleased, though, Mary, when Congress responded and did 
the Salton Sea Reclamation Act back in 1998, and also named the 
National Wildlife Refuge after Sonny, because this issue is 
going to be there in the hearts and minds of Congress for a 
long time because of Sonny, but it's also because of your 
interest in the issue that goes far beyond Sonny now. This is 
your district, it's about you and it's about how you carry this 
issue in Congress. And for that reason, all of us here today 
and we are here to be very good listeners and to be supportive 
of you.
    I yield back.
    Mr. Barton. Thank you.
    Now we'd like to recognize the gentlelady from the 45th 
District, for any opening statement that she wishes to make.
    Ms. Bono. Thank you, Mr. Chairman.
    I'm actually going to read my opening statement. I'll try 
to keep it under 3 minutes, because it's just such a good 
statement.
    The Coachella Valley is experiencing an incredible rate of 
growth. Building permits jumped over 300 percent last year in 
Sun Valley cities. I'm permanent resident population grew 11 
percent from last year. Between 1990 and 2002, the Coachella 
Valley's population leapt roughly 46 percent, while the states 
grew only 18 percent. This explosion in growth puts a strain on 
our roads, power generating capacity and the building industry, 
all of which impact the quality of our air.
    As far as our region is concerned, the Salton Sea could 
certainly pose risks to our health and the environment if not 
dealt with properly. When southern California's water agencies 
worked with State and Federal officials to produce the 
Quantification Settlement Agreement, or a way of parceling out 
the limited supply of Colorado River water, the first draft of 
this left the Salton Sea in a dire strait as the QSA at that 
time never factored in its impact on the sea. At that time, as 
now, my primary concern is what a smaller sea would do to our 
air quality if we didn't address this problem at the outset.
    I am grateful that a new QSA was signed, which acknowledges 
that transfers will impact the sea. The new agreement gives us 
15 years to come up with a restoration plan. Again, air quality 
remains the focal point.
    The time is ticking and these years will fly by. Therefore, 
it is critical for us to engage local, State and Federal 
officials on how best to face the reality of water transfers 
and how they will impact the sea. We have to move from studying 
the problem to fixing the problem, because the bill will come 
now or later.
    By this I mean that we should look to Owens Lake, which 
dried up due to a water hungry and growing Los Angeles, and is 
now considered to be the dustiest place in the United States. 
Today, L.A. has spent $250 million to control 19 square miles. 
The final plan will address 29 square miles, at a cost of $415 
million and $10 million annually in operation costs.
    By comparison, we could be looking at 100 square miles of 
exposed Salton Sea bed. While I realize not all of that will be 
emissive, even if half of it is that is an expensive 
proposition. That is just the financial costs, never mind that 
Owens Lake is not nearly as heavily concentrated, or is not 
nearly located in such a highly concentrated population center 
like the Salton Sea is.
    Since 1999, the U.S. EPA has found Coachella Valley to be 
out of compliance of Federal regulations for particulate 
matter. The EPA has given our region 5 years to get back into 
compliance by self-regulation.
    In many ways, we have the making of a perfect storm here. 
Our natural environment, combined with the high winds, the 
Salton Sea, and incredible growth, could pose serious 
challenges to the Coachella Valley.
    However, while we have these challenges, we also have some 
incredible people and agencies who are leaders in the effort to 
protect the quality of our air in unique and practical ways.
    In the end, I would like to see a region where we don't 
have to study how PM effects our health or worry about what 
barren land under the sea will do. I want the Coachella Valley 
to continue to taut the beauty of our environment to residents 
and to visitors alike.
    This hearing should bring to light what we are doing right 
and how the Federal Government can nurture this progress, but 
we also need to face and identify our deficiencies if are to 
maintain the quality of life.
    Again, thank you, Chairman Barton, for holding this 
hearing, and thank the city of Palm Desert for hosting it. I 
look forward to hearing from our panelists.
    Thank you, Mr. Chairman.
    Mr. Barton. Thank you.
    We want to keep the record open by unanimous consent, there 
are a number of members of the subcommittee that couldn't be 
here today. Any member of the subcommittee that wishes to put a 
statement in the record will be allowed to do so without 
objection, so ordered.
    We also want to keep the record open to a Congressman and a 
Congresswoman who are not a member of the subcommittee but are 
from California and wish to make--at one time they were going 
to try to participate but couldn't do it, Congressman Bob 
Filner and Congresswoman Grace Napolitano, if they wish to put 
in an opening statement or a statement of testimony in the 
record, they will be allowed to do so, without objection so 
ordered.
    We now want to call our first panel, and normally we would 
have a table that all the witnesses would come and sit at the 
same time. Because of the structure of the Council Chamber we 
are not going to be allowed to do that, so on the first panel 
we have four individuals. We have Mr. Roy Wilson, who is the 
Riverside County Supervisor. We have Mr. Tom Kirk, who is the 
Executive Director of the Salton Sea Authority. We have Mr. 
Buford Crites, who is the Chairman of the Energy and 
Environmental Resources for the Coachella Valley Association of 
Governments, and we have Mr. Matt Haber, who is the Acting 
Deputy Director of the Air Division of the Environmental 
Protection Agency for Region IX on our first panel.
    We will ask Mr. Wilson to step forward, and then after him 
Mr. Kirk, and then Mr. Crites, and then Mr. Haber.
    So, Mr. Wilson, if you will come forward, we are going to 
set the clock. We want to welcome you, sir. You are the County 
Supervisor, you are appearing on behalf of the County of 
Riverside, and also on behalf of the South Coast Air Quality 
Management District.
    Your statement is in the record in its entirety, we are 
going to ask that you summarize it in 6 minutes or less.
    Welcome to the subcommittee.

 STATEMENT OF S. ROY WILSON, RIVERSIDE COUNTY SUPERVISOR; TOM 
KIRK, EXECUTIVE DIRECTOR, SALTON SEA AUTHORITY; BUFORD CRITES, 
CHAIRMAN, ENERGY AND ENVIRONMENTAL RESOURCES, COACHELLA VALLEY 
ASSOCIATION OF GOVERNMENTS; MATT HABER, ACTING DEPUTY DIRECTOR, 
   AIR DIVISION; AND LARRY BILAND, SPECIALIST, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Wilson. Thank you, Chairman Barton, members of the 
subcommittee.
    I am Roy Wilson, Chairman of the Riverside County Board of 
Supervisors, but today I'm going to be speaking in my role as 
Vice Chairman of the 12-member governing board of the South 
Coast Air Quality Management District, better known as the 
AQMD.
    As a way of background, I might inform the committee that I 
am a 37-year resident of the Coachella Valley, and I have been 
privileged to invest many years in this community as a college 
professor, a planning commissioner, a transportation 
commissioner, a city council member, a mayor, and for the past 
9 years a member of the Board of Supervisors representing this 
area. I am also the immediate Past President of the Salton Sea 
Authority.
    So, while I testify on behalf of the regional AQMD Board, 
my local background gives me an appreciation and a commitment 
to our vibrant desert culture.
    I'd like to give the subcommittee a very abbreviated sketch 
of AQMD's activities related to the Coachella Valley, and then 
I'd like to conclude by mentioning three Salton Sea related 
scientific efforts that we could urgently use immediate Federal 
assistance in.
    First, some quick background. AQMD is the regional agency 
directly responsible for monitoring air quality and developing 
and enforcing air pollution clean air programs in the Coachella 
Valley, as well as in the nearly 11,000 square miles of the 
full South Coast air district, which includes most of the 
counties of Los Angeles, Orange, San Bernardino and Riverside. 
We have 16 million residents in our district.
    AQMD's responsibilities include the submission of formal 
attainment demonstrations to meet State and Federal health 
standards for air pollution, including ozone and fine 
particulates, both PM<INF>10</INF> and PM<INF>2.5</INF>.
    The long-term trend for fugitive dust levels in the 
Coachella Valley has been dramatically reduced over the years. 
We achieved attainment in recent years, but then we reached a 
lull in 1999 when conditions of a drought and heavy 
construction put us out of attainment. We immediately put 
together, with a team effort, a new PM<INF>10</INF> strategy 
plan and we are confident that that's going to get us back into 
compliance.
    AQMD has demonstrated, and intends to continue 
demonstrating, full commitment to bringing the South Coast into 
attainment in all pollutant areas. Since AQMD is responsible 
for addressing any adverse air quality impacts from Salton Sea 
project outcomes, it is vital that we be at the decisionmaking 
table deciding the future of that sea. We believe that our 
shared experience and investment partnerships can make this a 
win/win situation.
    Regardless of the means of the Salton Sea's eventual 
restoration, it is certain that we will need some measures of 
targeted and cost-effective mitigation measures to address 
fugitive dust. These concerns will come about because we know 
that the sea bed is going to be exposed to release a good 
portion of it.
    In addition, AQMD needs to have a vote at the table as 
Federal CMAQ funding priorities are deliberated. CMAQ funding 
has been very helpful to us here in the Coachella Valley in our 
Clean Streets program, and we continue to press for AQMD's more 
direct inclusion as a vital stakeholder in this process of 
allocating these funds.
    I'd like to conclude my remarks with a brief outline of 
three Salton Sea related scientific efforts that could urgently 
use immediate Federal assistance. And, as I've mentioned 
previously, it is a certainty that fugitive dust mitigation 
measures will be needed due to imminent water diversions. Our 
scientific staff is closely in touch with researchers in the 
Owens Valley who have completed federally funded dust inventory 
projects, and now is the optimal time to achieve an immediate 
Southern California follow-on to those fresh findings. AQMD 
deals with applying good science to benefit human health in the 
near term. So, we believe that transfer of knowledge is vital 
in the coming months.
    There are three efforts that I'd like you to address. The 
first one deals with ambient air monitoring hardware and 
placement. Currently, the AQMD has its closest PM<INF>10</INF> 
monitoring station in Indio. That's not good enough for the job 
of public health protection that lies ahead. Additional 
monitors are needed through Federal funding assistance.
    The second issue deals with sand movement monitoring 
hardware and placement. U.S. EPA has supported fugitive dust 
inventory projects in the Owens Valley that have borne valuable 
findings this year. If AQMD can partner in replicating that 
measurement effort at the Salton Sea, it would enable us to 
more cost effectively apportion control approaches by screening 
out lower-emitting areas.
    And third, we need to address field project assessments. 
Once AQMD has narrowed down the most active dust source issues 
and areas, we want to be able to transfer the mitigation tools 
successfully used in the Coachella Valley to initial testing at 
the Salton Sea, so that we can put in place preventative public 
health protection, instead of having to resort to reactive 
measures later on.
    And, therefore, I will conclude as my clock goes down by 
saying thank you for holding this very important hearing here. 
We have AQMD staff and myself available to answer any questions 
if you have them.
    [The prepared statement of S. Roy Wilson follows:]
 Prepared Statement of S. Roy Wilson, Riverside County Supervisor, on 
                      Bhalf of County of Riverside
    My name is Roy Wilson, and I'm speaking today as Vice Chairman of 
the 12-member Governing Board for the South Coast Air Quality 
Management District, better known as AQMD. As county supervisor for 
Riverside, California, I also represent Riverside County on the AQMD 
Board.
    In addition, I might inform the Committee that I am a long-time 
resident of the Coachella Valley, and have been privileged to invest 
many years in this community as a college professor, a city council 
member, a planning commissioner, a mayor, a transportation 
commissioner, and a county supervisor--and I currently serve on the 
Board of Directors of the Salton Sea Authority. So while I testify on 
behalf of the AQMD Board, my wider background is as a committed 
participant in our vibrant desert culture.
    There are dynamic priorities in the Coachella Valley, for housing 
and jobs, and health & habitat protection, and we are working hard to 
wisely manage greater Riverside County's role as one of the fastest-
growing construction and recreation areas in the entire United States. 
Coachella Valley residents and businesses alike place a tremendous 
value on clean air, protected by a positive economic climate.
    I'd like to give the Subcommittee a very abbreviated sketch of 
AQMD's activities relative to the Coachella Valley, and then I'd like 
to conclude by mentioning three Salton-Sea related scientific efforts 
that could urgently use immediate federal assistance.
    First, some quick background. AQMD is the regional agency directly 
responsible for monitoring air quality and developing & enforcing air 
pollution clean-up programs in the Coachella Valley as well as the 
nearly 11,000 square miles of the full South Coast air district, which 
includes most of four counties and 16 million residents.
    AQMD's responsibilities include the submission of formal attainment 
demonstrations to meet state and federal health standards for air 
pollution, including ozone and fine particulates--PM<INF>10</INF> and 
PM<INF>2.5</INF>.
    We are charged with meeting these public health standards while 
conforming with a number of additional legal requirements (such as 
state and federal environmental review processes, Transportation 
Conformity budgets, the Endangered Species Act, and environmental 
justice safeguards).
    Likewise, our efforts must also be accomplished in the climate of 
cold fiscal constraints and hot growth pressures that are now endemic 
to Southern California. AQMD has been truly fortunate to have one of 
the most forward-looking Metropolitan Planning Organizations (or MPOs) 
in California as our committed partner, in CVAG.
    The long-term trend for fugitive dust levels in the Coachella 
Valley has been dramatically downward, toward lower ambient levels and 
lowered public exposure, as indicated by monitoring records as well as 
enforcement and compliance logs. When a short-term pause in improvement 
occurred in 1999, an aggressive team response readily addressed the 
situation, and AQMD's subsequently revised PM<INF>10</INF> State 
Implementation Plan is now being successfully carried out through 
strengthened control measures.
    AQMD has demonstrated, and intends to continue demonstrating, full 
commitment to bringing Coachella Valley into attainment with all 
federal and state air quality standards. As the responsible air agency, 
our chief goal is to ensure that the critical ecosystem resource of 
healthful air is maintained for human well-being in the Coachella 
Valley, and also to help protect that resource as a critical 
underpinning of economic investment and quality of life in the area, 
including individuals residing on nearby tribe reservation lands. 
Again, CVAG continues to perform as our key pro-active partner 
throughout this process.
    I want to take just a moment to say AQMD appreciates CVAG inviting 
me to today's hearing. Since AQMD is responsible for addressing any 
adverse air quality impacts from Salton Sea project outcomes, it is 
vital that we be at the decision-making table deciding its future. We 
know that we'll be brought into the loop if negative consequences 
arise--but we'd much prefer to be present up front, so that our 
experience and investment partnerships can make this a win-win 
situation.
    On a positive note, AQMD's Executive Officer, Dr. Barry 
Wallerstein, has recently been invited by the California Resources 
Agency to participate as a member of the Salton Sea Restoration 
Advisory Committee, and we look forward to an active role there.
    Regardless of the means of the Salton Sea's eventual restoration, 
it is certain that we will need some measure of targeted and cost-
effective mitigation measures to address fugitive dust concerns from 
planned water diversion and sea-bed exposure. Thus, AQMD has an ongoing 
interest in assuring that public air quality needs are pro-actively 
considered, as actions proceed by involved agencies.
    In addition, AQMD needs to have a vote at the table as federal CMAQ 
funding priorities are deliberated. CMAQ funding has been very helpful 
to the success of the Clean Streets program, but we continue to press 
for AQMD's more direct inclusion as a vital stakeholder. AQMD can offer 
key suggestions concerning CMAQ allocations, and a regional 
vantagepoint currently being under-utilized.
    I'd like to conclude my remarks now with a brief outline of three 
Salton-Sea related scientific efforts that could urgently use immediate 
federal assistance. As I've mentioned previously, it is a certainty 
that fugitive dust mitigation measures will be needed due to imminent 
water diversion. AQMD very much wants to narrow down the exposed area 
to be controlled. Our scientific staff is closely in touch with 
researchers in the Owens Valley who have completed federally funded 
dust inventory projects, and now is the optimal time to achieve an 
immediate Southern California follow-on to those fresh findings. AQMD 
deals with applying good science to benefit human health in the near 
term. So we believe that transfer of knowledge is of vital importance 
in the coming months.
    The three efforts we'd like to take forward are these--all aimed at 
quantifying the real scope of mitigation needs:

1. Ambient air monitoring hardware and placement. Currently, AQMD's 
        closest PM monitor is a single station located at Indio. That's 
        not good enough for the job of public health protection that 
        lies ahead. Additional monitors are needed, through federal 
        funding assistance.
2. Sand movement monitoring hardware and placement. U.S. EPA has 
        supported fugitive dust inventory projects in the Owens Valley 
        that have borne valuable findings this year. If AQMD can 
        partner in replicating that measurement effort at the Salton 
        Sea, it would enable us to more precisely and more cost-
        effectively apportion control approaches, by screening out 
        lower-emitting areas that only have seasonal or sporadic dust-
        emitting activity.
3. Mitigation field project assessment. Once AQMD has narrowed down the 
        most active dust source spots, we want to begin transferring 
        the mitigation tools successfully used in Coachella Valley to 
        initial testing at the Salton Sea, so that we can put in place 
        effective, preventative public health protection--instead of 
        having to resort to reactive measures later down the road.
    I'll wrap up by recalling a sentence from a Salton Sea assessment 
by USGS a few years back, which said ``This challenge is of Herculean 
proportions but not beyond successful accomplishment.'' The late 
Honorable Congressman Mr. Bono shortened that to ``We can get this 
thing done.'' The AQMD Governing Board could not agree more.
    I appreciate your time this morning, and I welcome any questions 
you might have for me or AQMD technical staff.
                                 ______
                                 

                            Coachella Valley 1999/2003 Compliance Statistical Summary
----------------------------------------------------------------------------------------------------------------
                                                                  1999      2000      2001      2002      2003
----------------------------------------------------------------------------------------------------------------
Fugitive Dust Related Complaints..............................      426      1401       404       659       347
Resulting Notices of Violation Issued.........................       28        24        46        61        28
----------------------------------------------------------------------------------------------------------------

              coachella valley dust class training (2003)
 37 classes conducted
 742 participants (includes local city and Riverside County code 
        enforcement and engineering staff and construction industry 
        representatives)
               key achievements in the 2003 dust program
 The latter part of 2003 produced a significant increase in requests 
        for the Coachella Valley Fugitive Dust Training Class. This was 
        in response to the anticipated requirements of the adopted 
        Coachella Valley State Implementation Plan (CVSIP), and the 
        compliance date of April 1, 2004 to receive the training and 
        Certificate of Completion.
 CVAG and District staff prepared a Memorandum of Understanding, Model 
        Draft Ordinance and Dust Control Workbook, with the cooperation 
        of the Coachella Valley jurisdictions and submitted the 
        documents to each jurisdiction for adoption through their 
        ordinance review and adoption process. (NOTE: As of January 6, 
        2004, ALL jurisdictions in the Coachella Valley, including 
        Riverside County, have adopted the aforesaid documents.)
 Feedback from participants attending the dust classes tell us there 
        is a growing level of awareness in the regulated community for 
        the changes in the dust program and the model Ordinance.
 Developers and contractors are taking the initiative and requiring 
        more of their staff to attend and successfully complete the 
        dust class.
 Our training program is providing a clear and consistent message 
        regarding the need for an aggressive dust control program as 
        well as a comprehensive review of all of the newly adopted 
        changes.
                                 ______
                                 
  the salton sea after the water diversion begins: crucial technical 
      needs to enable air quality impact and mitigation assessment
    As the Salton Sea shrinks, increasing square miles of sea bed will 
be exposed and subject to wind erosion. Dust storms, and their related 
PM<INF>10</INF> (small particulate matter less than 10 microns in 
diameter), arising from the exposed sea bed could significantly impact 
the health and welfare of the people of the Coachella Valley. This is 
similar to the situation that resulted from the draining of Owens Lake; 
Owens Valley is subject to PM<INF>10</INF> levels orders of magnitudes 
greater than federal health standards during wind-driven dust storms. 
SCAQMD staff believes that the same type of technical program of air 
quality impact and mitigation assessment done in the Owens Valley is 
crucial to minimizing the public health & welfare impacts to air 
quality (from Salton Sea water diversion) in the most cost-effective 
manner. Under the purview of current scientific and technical peer 
review organizations, SCAQMD staff recommend the following technical 
projects:

1. At least 3 air quality monitoring stations in the communities 
        between the northern shore of the Salton Sea and the SCAQMD's 
        current Indio monitoring station.
      Necessity: There are no current air monitoring stations in this 
        growing area of the Coachella Valley nearest to the Salton Sea. 
        Much of this area is tribal land. The people of the communities 
        in this area are predominantly lower-income minority 
        populations. Without these monitors, the air quality impact of 
        PM<INF>10</INF> from the Salton Sea in terms of the federal 
        health standards cannot be assessed.
2. Sufficient ``Sensit <SUP>TM</SUP>'' sand movement monitors to assess 
        the PM<INF>10</INF> emissivity of exposed sea bed. As in the 
        Owens Valley, only certain areas of the exposed sea bed may 
        significantly emit PM<INF>10</INF>.
      Necessity: The location and extent of those areas most 
        susceptible to wind erosion is necessary to calculate emissions 
        and conduct air quality modeling. Identifying only those sub-
        areas responsible for significant air emissions is necessary to 
        maximize emission reductions for the least cost.
3. Mitigation assessment projects for proposed controls such as shallow 
        flooding, salt-tolerant vegetation, and sand fencing. As in the 
        Owens Valley, the most cost-effective control program may be a 
        targeted mix of controls.
      Necessity: These projects are necessary to minimize the cost of 
        needed controls by providing crucial technical feasibility, 
        durability, emission reduction and cost data.

    Mr. Barton. Thank you, sir, and I want to compliment the 
city on their monitoring equipment in the Council Chamber. We 
have a little bitty clock in Washington that everybody ignores, 
but you can't miss that big clock. So, that may be one 
improvement that I take back to my hearings in Washington.
    We now want to hear from Mr. Tom Kirk, who is the Executive 
Director of the Salton Sea Authority. If you'll please come 
forward.

                      STATEMENT OF TOM KIRK

    Mr. Kirk. Chairman Barton, Congressman Bono, members of the 
subcommittee, thanks for the invitation. The Salton Sea 
Authority is a regional agency comprised of two water districts 
in two counties, and soon the Torres Martinez Tribe locally.
    The Salton Sea is California's largest lake, and it's an 
important stop along the Pacific Flyway for a number of birds. 
There is a lot of concern that the Salton Sea could become the 
largest contributor of dust or PM<INF>10</INF> in the region, 
and why the concern? Congressman Bono has already alluded to 
it, and that is, there are planned diversions of water from the 
Imperial Valley. Those planned diversions will amount to about 
300,000 acre feet of water, and that will drop the elevation of 
the sea by about 20 feet and expose about 80 square miles or 
more of lake bed sediment. There are also some small diversions 
of water that will occur and further reduce the elevation of 
the sea and expose lots of lake bed.
    At Owens Lake, as the Congresswoman indicated, the city of 
Los Angeles diverted a like amount of water in the early part 
of the last century, and Owens Lake is now the largest 
contributor of PM<INF>10</INF> in the Nation. The city of Los 
Angeles has spent a couple hundred million dollars at Owens 
Lake, and will spend much more in the coming decades.
    Given the Owens Lake problems, the Salton Sea Science 
Office, which is a federally funded office, the Bureau of 
Reclamation, the Salton Sea Authority, have asked the Owens 
Lake experts, and lots of other experts on desert, dry lakes 
and saline lakes, for their opinion about whether we are going 
to have a problem at the Salton Sea, and the jury is still out. 
And, of course, one of the complications of the Salton Sea is 
that there is water in the Salton Sea today and it's difficult 
to make those predictions.
    At the same time, there are lots of similarities and lots 
of differences between Owens Lake and the Salton Sea. Among the 
differences, the Owens Lake is colder, has a different salt 
make-up and has higher winds. At the same time, the experts 
tells us to be very cautious, and they are predicting that 
there will be air quality impacts of the Salton Sea. And, one 
look at yesterday's Desert Sun, hopefully you have a copy of 
that Desert Sun article, and you see similar photos in my own 
testimony, one look at yesterday's Desert Sun will tell you 
that we may have problems with the Salton Sea. That was a photo 
of a dust storm that ran across, billowed across the Salton Sea 
on September 4. The wall of that dust storm was estimated to be 
well over a thousand feet high and several miles across, and 
that came up north from south of the Salton Sea, across the 
Salton Sea, and into the Coachella Valley.
    Another cause for concern is putting Owens Lake in 
perspective with the Salton Sea, and at Owens Lake we know 
we've generated more dust than any other place in the Nation. 
We generate 80,000 to 250,000 tons of PM<INF>10</INF> per year. 
And, for people like me, it's hard to fathom what that means, 
100,000, 200,000 tons of PM<INF>10</INF>, what exactly does 
that mean? So, I tried to compare it to our own sources of 
PM<INF>10</INF> and dust in the Coachella Valley, and both Ted 
Schade, who couldn't be here, with the Great Basin Air 
Pollution Control District, and I, made just some preliminary 
estimates for your consideration.
    Ted estimated that we could generate 8,000 tons of 
PM<INF>10</INF> per year in the Coachella Valley from a 
receding Salton Sea. I estimate 2,500 tons. Both estimates are 
just ballpark figures that say maybe 1 to 10 percent of the 
problem of an Owens Lake. It could be greater, it could be 
smaller. I think they are very conservative estimates.
    At those estimates, say we generate 800 to 2,500 tons of 
dust per year, compare that to all of the dust now generated in 
the Coachella Valley from all mobile and stationery sources. 
That number is 328 tons per year, and we spend a lot of time 
and energy making sure that smokestacks are retrofitted, and 
take care of various mitigation measures, even a small problem 
in comparison to Owens Lake at the Salton Sea could dwarf all 
of those emissions.
    Since Ted Schade couldn't be here, I thought, if the 
chairman would allow me, I'll read from the last paragraph of 
his testimony. And, his testimony indicates, ``In conclusion, 
for the past 13 years, while working at Owens Lake, I have 
often told myself that we cannot blame the city of Los Angeles, 
or even President Roosevelt, for allowing Owens Valley water to 
be diverted and causing the single, largest source of 
PM<INF>10</INF> air pollution in the country. Those decisions 
were made over 90 years ago by well-intentioned leaders. I knew 
that such disastrous decisions would never be made in this day 
and age. I could not believe that our decisionmakers today 
would even possibly let it happen again. In my opinion, as an 
expert in air quality problems caused by the diversion of water 
from saline lakes, the diversion of water from the Salton Sea 
to the city of San Diego will cause some level of air pollution 
in the Salton Basin. Although there were many unanswered 
questions, the answers to which will allow an accurate 
assessment of the magnitude of the problem, the project 
proponents and decisionmakers have not seriously dealt with the 
potential for serious air pollution. They tell us there may be 
significant impacts, yet they make no attempt to quantify the 
problem or even suggest solutions to what could become an even 
bigger problem than Owens Lake. Everyone involved with the 
Salton Sea needs to admit that they could be involved in 
creating an enormous environmental catastrophe and commit the 
time and money necessary to determine the magnitude of the 
problem and implement the necessary solutions.''
    Well, what could you do in the Federal Government? Become 
more involved in the Salton Sea restoration. You point out the 
Salton Sea Reclamation Act, the Federal Government has been a 
partner in Salton Sea restoration. Both Mike Walker and Rey 
Stendel are in the audience representing the Federal Government 
today, they have been a partner, but they could be a much more 
active partner, as Salton Sea restoration is going to require 
the work of the local community, the State, and the Federal 
Government. I think we want to make sure we don't create an 
Owens Lake in a region with a million people this time of year. 
It could be disastrous for both the environment and the 
economy.
    Thank you very much.
    [The prepared statement of Tom Kirk follows:]
    Prepared Statement of Tom Kirk, Executive Director, Salton Sea 
                               Authority
                              introduction
    Chairman Barton, Congresswoman Bono and other members of the 
Subcommittee on Energy and Air Quality, thank for the invitation to 
testify regarding air quality issues in our region. I am Tom Kirk, 
Executive Director of the Salton Sea Authority. The Salton Sea 
Authority is a regional government comprised of the Imperial Irrigation 
District, Coachella Valley Water District, Imperial County, Riverside 
County, and, pending, the Torres Martinez Desert Cahuilla Tribe.
    There may be nothing more valuable or more integral to the long 
term sustainability of the Coachella and Imperial Valley economy than 
the quality of our air. There are legitimate concerns that a receding 
Salton Sea could jeopardize our attainment of clean air standards and 
threaten public health and our quality of life based economy. While 
many lakes have historically filled and then receded in the Salton 
Basin, the Salton Sea, shown at the center of Figure 1, has existed for 
approximately 100 years. Its size and depth has fluctuated during that 
time, however during the past couple of decades its surface elevation 
has been stable at about -228 feet msl.
                             a receding sea
    The Salton Sea's primary source of inflow is agricultural return 
water. This is also the source, via exchange, of most of the water for 
the water transfers from the Imperial Valley to San Diego and the 
Coachella Valley under the quantification settlement agreement (QSA). 
Under the transfer agreement, the Salton Sea's baseline inflow 
conditions would be maintained for 15 years. After 15 years, the full 
effects of the transfer would cause substantial reductions to the 
inflow to the Sea, as shown in Figure 2, eventually reaching an 
elevation about 20 feet lower than today.
    The receding shoreline would leave large areas of sediment exposed 
to wind erosion. Figure 3 shows the expected progression of exposed 
sediments over time. After 30 years, about 80 square miles (over 50,000 
acres) of lakebed sediments would be exposed.
    Figure 4 depicts the predicted new shoreline of the Salton Sea in 
30 years, after implementation of the water transfers, and depicts the 
80 square miles of exposed lakebed in light blue.
                     potential air quality impacts
    There is no debate that much land will be exposed as the water 
transfer is implemented. On the other hand, there is little consensus 
on what impact such exposure will have on PM<INF>10</INF> levels or on 
human health in the Coachella or the Imperial Valleys. Of course, 
predicting future emission impacts while the future exposed area is 
underwater is difficult and complicated. The U.S.G.S. Salton Sea 
Science Office has spearheaded a number of efforts, with the Salton Sea 
Authority and U.S. Bureau of Reclamation, to facilitate better 
predictions, including bringing together some of the nation's top 
experts on PM<INF>10</INF> and dry lakes to help chart a research and 
monitoring program, assembling detailed weather and other data, and 
most recently, directing a detailed assessment of near shore sediments. 
(Characterization of Shallow Sub-Surface Sediments of the Salton Sea, 
Agrarian Research, 2003)
    The Imperial Irrigation District Water Conservation and Transfer 
Project Environmental Impact Report/Statement (EIR/EIS) predicted the 
transfer could have a serious and unavoidable impact on air quality. 
The impacts were not quantified. Much attention in that EIR/EIS and 
related environmental assessments has been given to the differences and 
similarities with the nation's greatest contributor of PM<INF>10</INF>, 
Owens Lake.
    Notably, Owens Lake problems occurred after a water transfer/
diversion by the City of Los Angeles that began decades ago. 
Ironically, the scale of the water diversion from the Owens River and 
the amount of water reduced from inflows to the Sea as a result of the 
IID water conservation and transfer project are similar. So is the 
amount of area exposed. However, there are differences in temperature, 
humidity, winds, salt composition, and groundwater that might reduce 
the likelihood of impacts at the Salton Sea. All are factors 
contributing to emissions at Owens Lake and are likely factors 
affecting conditions at the receding Salton Sea. Still, there are good 
reasons for concern.
    During the winter of 2001/2002, the director of the Salton Sea 
Science Office witnessed a wind event at the southeast of the Salton 
Sea that picked up salts and lakebed material from a seasonally exposed 
area of the Salton Sea and blew it on-shore (see Figure 5).
    A more dramatic indication of the risk from the periodic high wind 
events at the Salton Sea occurred just four months ago on September 4, 
2003. Following are images from the Salton Sea shoreline showing a 
massive dust cloud engulfing areas as it moved from the desert 
southwest of the Sea north across the Sea and into the Coachella 
Valley. Figure 6 shows the storm from the west side of the Sea at 
Salton City. The wall of the storm was estimated by the State Park 
ranger to be over 2000 feet high. Figure 7, below, shows the storm from 
the east side of the Sea at Bombay Beach, looking across the Sea.
    Hypothetical scenarios help explain the interest and concern about 
``re-creating'' an Owens Lake problem at the Salton Sea. Owens Lake 
generates, on average, about 250,000 tons of PM<INF>10</INF> per year. 
For many of us, that number does not ``mean'' much. To put it into 
perspective, if the 80 square miles of exposed lakebed at the Sea 
generates only 1% as much PM<INF>10</INF> as similar exposed areas at 
Owens Lake, the Sea would generate 2,500 tons of PM<INF>10</INF> per 
year. Comparing this hypothetical impact to the amount of 
PM<INF>10</INF> generated by all mobile and stationary sources in the 
Coachella Valley, 328 tons/year, puts this number in perspective (see 
figure 8) (California Air Resources Board, Emissions Inventory, 2002). 
Prevailing winds during much of the year will direct any fugitive dust 
from the lakebed toward the Imperial Valley. However, some of the most 
violent storms, as the dust storm pictured above indicates, come from 
the south during the summer, monsoon season, when prevailing winds 
reverse direction and head north into the Coachella Valley.
    While PM<INF>10</INF> alone is a health concern, the other concern 
is related to the nature of the particles that might be detached and 
picked up by wind. While the Sea's water quality is quite good on many 
measures (meets many EPA drinking water quality standards, except, of 
course, for salts), concentrated levels of some elements of concern are 
found in some of the Sea's sediments. Of the elements of concern, 
Selenium, Copper, Molybdenum, Nickel, Zinc and Selenium, are 
concentrated in the sediments in the north end of the Sea, closer to 
the Coachella Valley. While some of the highest concentrations of 
elements like Selenium are found in deeper waters, others are found 
around the Whitewater delta, an area that will be exposed if the Sea 
recedes as projected. (Environmental Reconnaissance of the Salton Sea: 
Sediment Contaminants, LFR, Levine Fricke, 1999)
    One major difference between the Owens Valley and the Coachella and 
Imperial Valleys is population. Owens Lake is far from major population 
centers. The Coachella Valley has a year round population of over 
300,000 persons and a seasonal population of over one million. This 
region's top two industries, agriculture and tourism are both 
negatively impacted by poor air quality.
                        roles & responsibilities
    If there is an air quality problem from a receding Sea, who will be 
responsible for ``fixing'' it? As noted above, the water transfer 
environmental documents acknowledge the potential air quality problem. 
The water transfer environmental documents include the following 
mitigation measures: restricting public access to exposed areas to 
minimize disturbance of natural crusts and a research and monitoring 
program. The monitoring program is a condition of the transfer permit 
by the State Water Resources Control Board. If monitoring determines 
that actual impacts exceed standards, additional mitigation steps are 
identified: include creating or purchasing offsetting emission 
reduction credits or direct mitigation through provision of mitigation 
water or stabilizing soils.
    While direct mitigation of the potential air quality problem is an 
identified mitigation measure, the water transfer parties may not be 
the responsible agency for funding the mitigation measures. Under the 
recently signed water transfer and related agreements, the water 
transfer parties are limited to paying $133 million for all mitigation 
costs (including those in the Imperial Valley, along the Colorado 
River, etc.). If serious air quality problems materialize at the Sea, 
it is likely that the water transfer parties' mitigation fund would not 
be sufficient to pay for mitigation and, presumably, the State of 
California would be financially responsible for any additional costs.
    The Salton Sea Authority is developing a restoration plan. The 
reduced inflows make restoring the Salton Sea that much more 
complicated and challenging. The current direction of restoration 
planning involves designing a smaller body of water and associated 
wetlands, consistent with reduced inflow scenarios. The plans include 
dredging and/or constructing shallow water habitat areas that would be 
a part of the salt management system. It is likely that these shallow 
water habitat areas would be arranged in ways that break up the 
distance between dry playas and wetted surfaces. Also, we are working 
with a contractor with much experience at Owens Lake to design our salt 
management systems in ways that would ``cap'' soil, reducing potential 
emissive surfaces. At the same time, we will continue to work with the 
Bureau of Reclamation and U.S.G.S. Science Office to support research 
and science that will help us and others predict and respond to 
potential air quality problems.
    The federal government has clear national air quality priorities 
associated with the Clean Air Act. The federal government also has 
major responsibilities associated with the Sea associated with the 
Migratory Bird Treaty, the Endangered Species Act and the Salton Sea 
Reclamation Act of 1998. The 1998 Act, along with continued support by 
Congresswoman Mary Bono and the Congressional Salton Sea Task Force, 
have enabled the Bureau of Reclamation and U.S.G.S. Salton Sea Science 
Office to work in partnership with the Salton Sea Authority on 
restoration studies, pilot projects and other activities. I understand 
that Department of Interior restoration-related activities do not fall 
within your subcommittee's purview, however, since air quality concerns 
are a critical element of any restoration effort, your subcommittee's 
assistance in supporting air quality-related research and/or projects 
would be greatly appreciated. Addressing the problems of a receding 
Salton Sea proactively and through restoration will be more cost 
effective than ``mopping up'' the problems later. The nation cannot 
afford another Owens Lake problem, this time centered in a region of a 
million people.

[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 

    Mr. Barton. Thank you, sir.
    We now want to hear from Mr. Buford Crites, who is Chairman 
of the Energy and Environmental Resources, Coachella Valley 
Association of Governments. Your testimony is in the record in 
its entirety, and we would ask that you summarize it in 6 
minutes or less. Welcome to the subcommittee.

                   STATEMENT OF BUFORD CRITES

    Mr. Crites. Thank you. Thank you, Mr. Chairman, thank you, 
members of the subcommittee.
    On behalf of the city of Palm Desert, as a member of the 
City Council, I welcome you and am glad that you are here. On 
behalf of the Coachella Valley Association of Governments, 
again a welcome.
    A special thank you to Congresswoman Bono for the efforts 
that she continuously makes for our valley, in the fields, not 
only of air quality, but other areas, and our sincere 
appreciation is extended.
    As she noted, the Coachella Valley is an area experiencing 
remarkable growth, as are many parts of the country. CVAG 
itself consists of over nine cities, the County of Riverside, 
three tribal nations, it covers an area of over 2,500 square 
miles, more than 300,000 permanent residents, and if you'll 
note the traffic today, lots of part-time residents with 
license plates from all over the United States, certainly 
including States to the north, to the east, and everywhere 
else. We have a thriving agricultural sector. We have a 
remarkable diversity of plants and animals, national parks, 
national monuments, and other areas nearby, internationally 
known for tourism, and excellence in air quality is simply not 
an option for the health of local residents, for the health of 
visitors, and for the vitality of our business communities.
    To the west of our valley, we have the L.A. Basin, and this 
valley have been, and remain, and will be strong supporters of 
the EPA and local and State efforts to improve the air quality 
in the L.A. Basin, because we both literally see and breathe 
the results of their solutions.
    But locally, and to the east where the Salton Sea is, the 
issues are specifically PM<INF>10</INF>. The diorama behind 
you, obviously, shows a desert that is, by its nature, filled 
with sand and wind, but yet a significant part, if not by far 
the majority of the PM<INF>10</INF> that is generated in this 
valley, is not generated naturally, it's generated by humankind 
and the kinds of things that we do, whether that be 
construction, whether it be off-roading, whether it be the 
presence of sand on roadways that's ground up into fine 
particulate matter, or whether it be, now for the future, the 
potential exposed seashores of the Salton Sea.
    As was noted by previous speakers, we were a serious non-
attainment area for PM<INF>10</INF>. We came back into balance 
and then, because of construction and other issues, and I think 
just probably not our best attention, we were out of 
compliance, we came back in the year 2002, and along with an 
excellent cooperative relationship with our local building and 
industry associations, and being able to use a lot of the 
models from Maricopa County in Arizona we created a new plan in 
2002 that really does do a lot in terms of doing best available 
control technology of making sure that our street sweeping 
program has zero emission vehicles, that the vehicles 
themselves produce no pollutants because they are natural gas, 
making sure we are doing sand fencing, making sure we are doing 
stabilizers, training. The results of the 2002 program in 1 
year is that complaints of fugitive dust in this valley have 
dropped by over 40 percent to their lowest level in 5 years.
    That program is at least possible because of the Federal 
Government's participation with CMAQ funding, and, obviously, 
as that expires this year we are looking for that to be 
reauthorized, and for the Coachella Valley again to remain a 
recipient. We use those funds to do the kinds of regional clean 
street programs and other kinds of programs that have made this 
reduction possible.
    But, every bit of that reduction could be for naught with 
the kinds of quantities of PM<INF>10</INF> that the Salton Sea 
has the potential, the very real potential, to generate.
    And, as I noted before, we depend on the quality of our air 
for our economy and our health. We do sincerely request that 
the Salton Sea be on your radar screen, not only for the 
remarkable, remarkable ecological value that it has, in terms 
of places for migrating birds, water fowl and recreation, but 
also because of the potential for human health catastrophes 
that have happened in other places.
    We will pay a bill. The only question is, is how we choose 
to pay those bills. And, as Congresswoman Bono has noted, being 
proactive, having plans in place, using AQMD's resources, 
allowing the Coachella Valley, through its participation with 
the Federal Government, CMAQ, to continue to do what we do 
within the valley, and then making sure that a strong regional 
approach of local governments, the State government, and the 
Federal Government, make sure that the Salton Sea retains its 
vitality as an ecological treasure and also does not become 
something that we will all rue the day that we finally have 
heard of the Salton Sea, and not as something to treasure, and 
not as something to visit, not as something to be proud of, but 
it is yet something else that we have to figure out how to fix.
    I thank you all.
    Mr. Barton. Thank you, sir.
    I've been told by my staff that this clock actually comes 
from Washington, DC, that we just haven't used it in my 
subcommittee because I hold my subcommittee hearings in the big 
committee room on the first floor, that this is a clock that 
they use up on the third floor. So, I still want to thank the 
City Council for this, but you probably have an even bigger 
clock.
    Mr. Crites. No, we were going to thank you for the gift of 
the clock.
    Mr. Barton. Oh, beware of congressmen bearing gifts.
    Our final panelist on the first panel is Mr. Matt Haber, 
who is the Acting Deputy Director of the Air Division of the 
Environmental Protection Agency in Region IX. We'd love to have 
you come forward. Welcome to the subcommittee.

                     STATEMENT OF MATT HABER

    Mr. Haber. Thank you. Good morning, Chairman Barton and 
members of the subcommittee. I am Matt Haber. I'm the Acting 
Deputy Director of EPA's Region IX Air Division in our Pacific 
Southwest Office. Thank you for the opportunity to provide 
testimony relating to air quality in the Coachella Valley, as 
well as potential air quality impacts associated with reduced 
water flows that might impact the Salton Sea.
    We've been actively engaged with air quality in the 
Coachella Valley since the State of California and our agency 
determined that the area did not attain the health-based air 
quality standard. Our role has been to work with the South 
Coast Air Quality Management District and the Coachella Valley 
Association of Governments on two important pollutants, ozone 
and PM<INF>10</INF>.
    I want to cover a few key areas just to summarize my 
remarks, starting with air quality in the Coachella Valley, 
talking a little bit about lessons we've learned in Owens 
Valley, and the next steps that we might take related to the 
Salton Sea.
    As the other speakers have said, there have been a number 
of problems with air quality in the Coachella Valley. The 
valley is currently out of attainment for both the 1-hour ozone 
standard as well as the PM<INF>10</INF> standard. And, due to 
aggressive moves and leadership by the South Coast Air Quality 
Management District and the Coachella Valley Association of 
Governments, from both standards the area is on its way toward 
attaining the standards, and particularly the innovative steps 
that the CVAG has taken with respect to PM<INF>10</INF>. We 
really think that that's been a good thing.
    The area is currently experiencing violations of the 8-hour 
ozone standard, and the State has recommended, and EPA has 
indicated that we agree with its recommendation, to designate 
the area non-attaining the 8-hour standard. So, we'll continue 
to need to work on ozone issues, as well as PM<INF>10</INF> 
issues.
    In terms of the Owens Valley, the other speakers have very 
eloquently talked about the origin of the problem in the 
valley, and what was done to do it, but a couple things I 
wanted to emphasize is that the way we got to the solutions 
there was a cooperation between EPA, the Great Basin, Unified 
Air Quality Management District, and the city of Los Angeles, 
to work together toward a solution, looking at different 
alternative ways of putting emission controls in place, which 
in that case turned out to be a combination of vegetation, 
gravel and shallow flooding.
    But, one thing I do want to emphasize is that it's not the 
case that controls that work there are exactly transferrable to 
the situation here with the Salton Sea. We need to look very 
carefully at the specifics of the Salton Sea to find out what 
will work and what won't.
    As the Salton Sea recedes, as the surface grows, there is a 
potential for wind erosion and very large emissions, as the 
other speakers have said, due to wind erosion and human 
activity.
    We need to look very carefully at Owens Valley as a model 
for what might be done here to prevent the problems. Again, the 
other speakers have said very eloquently that starting today is 
the best time to do it, instead of when we actually have a 
problem and human health is impacted.
    We believe that starting with monitoring near the lake is 
appropriate, and really finding out what the best science is so 
we can take the next steps to control lake emissions before 
they occur.
    I'm going to close really early.
    Mr. Barton. Bless you.
    Mr. Haber. The experiences that we've had at Owens and Mono 
really should guide our decisions concerning the Salton Sea, to 
help prevent violations of the PM<INF>10</INF> standards which 
could negatively affect public health.
    Thank you for the invitation to provide testimony here, and 
I'd be happy to answer any questions you have.
    [The prepared statement of Matt Haber follows:]
    Prepared Statement of Matt Haber, Acting Deputy Director of Air 
        Division, U.S. Environmental Protection Agency, Region 9
    Good morning, Chairman Barton and Members of the Committee. My name 
is Matt Haber. I have been the Acting Deputy Division Director in the 
Air Division at the United States Environmental Protection Agency 
Region 9, our Pacific Southwest office, since June 2003. Thank you for 
the opportunity to provide testimony relating to the air quality in the 
Coachella Valley as well as the potential air quality impacts 
associated with reduced water flows which impact the Salton Sea.
    EPA has been actively engaged in air quality in the Coachella 
Valley since the State of California and the Agency determined that the 
area did not attain the health based air quality standard. EPA's role 
has been to work with the South Coast Air Management District and the 
Coachella Valley Association of Governments to protect residents from 
the health effects of air pollution. EPA has continued to work with the 
Coachella Valley to address the non-attainment status regarding two 
important air pollutants, ozone and particulate matter. As required by 
the Clean Air Act, EPA has approved the South Coast Air Management 
District's plans B known as the State Implementation Plan B to achieve 
healthy levels of ozone and particulate matter. Air quality modeling 
shows that attainment is projected given control measures currently 
adopted and current levels of anthropogenic and natural emissions.
    EPA's role in the Salton Sea and Lower Colorado River region has 
been to work with the Salton Sea Authority to oversee initial 
environmental studies. In 1997, Congress provided EPA $5 million to 
identify baseline conditions at the Sea. Based on those studies and in 
recognition of the complexity of the issues, in 1998 Congress 
appropriated an additional $8.5 million to EPA for scientific and 
engineering studies and pilot projects. The studies and projects were 
coordinated by the Salton Sea Authority. This work has provided a basis 
for the development of alternatives being considered to improve 
conditions at the Salton Sea. Throughout the process, EPA worked to 
ensure the use of appropriate scientific methods and approaches to 
protecting air quality in the valley.
    EPA served on the Salton Sea Science Advisory Committee. This 
committee provided actions that could be taken to protect air quality 
in the valley. EPA also had a role in the environmental review of 
projects related to California's use of Colorado River Water which have 
an impact on water flow into the Salton Sea. Since the hearing here 
today is focused on ``Air Quality Issues in the Coachella Valley,'' I 
will now spend some time discussing that subject.
                    1. coachella valley air quality
a. Particulate Matter in the Coachella Valley
    The Coachella Valley is currently classified under the Federal 
Clean Air Act as being a ``serious'' non-attainment area for 
PM<INF>10</INF>. Particulate matter, also known as PM, is the general 
term used for a course and fine particles found in the air. Particulate 
matter is associated with numerous adverse environmental and health 
effects. Exposure to coarse particles is primarily associated with the 
aggravation of respiratory conditions such as asthma. For the last 3 
years, the Coachella Valley's design values were above the national 
coarse particle standards as measured over the course of a day and over 
the course of a year. The Coachella Valley far exceeded the 24-hour 
standard of 150 micrograms per cubic meter, with the value calculated 
at 604 micrograms per cubic meter. During this time, the area exceeded 
the standard on 10 days.
    In this area, the primary sources of PM<INF>10</INF> emissions are 
fugitive windblown dust (28%); construction and demolition (23%); 
reentrained dust from paved roads (22%); and reentrained dust from 
unpaved roads (12%). EPA is working with the South Coast Air Quality 
Management District ``SCAQMD,'' Coachella Valley Association of 
Governments, and each of the local governments to address these sources 
of course particles. The area has adopted best available control 
measures to reduce these emissions in the area.
    These control measures include state-of-the-art controls on paved 
roads: minimizing track-out (preventing soil from unpaved areas from 
entering upon paved areas); providing for PM<INF>10</INF> efficient 
street cleaning; mandating post-event street cleaning; and requiring 
curbs and gutters and chemical stabilization of unpaved road shoulders. 
In addition, best control measures are required for construction and 
demolition activities; unpaved roads (e.g., chemical treatment or speed 
reduction); agricultural activities (e.g., soil conservation plans); 
and controls on weed abatement. The control measures, as appropriate, 
increase in stringency during periods of high wind, in order to reduce 
the emissions. On August 1, 2003, the SCAQMD amended the area's plan to 
control coarse particles by enhancing, existing control measures to 
reduce further PM<INF>10</INF> emissions. These enhancements are 
expected to bring the Coachella Valley into attainment with the 
national standards for PM<INF>10</INF> by, or before, the 2006 
deadline. Under the plan, SCAQMD will conduct modeling to show that the 
area will attain on schedule.
b. National Ambient Air Quality Standards for Ground-Level Ozone
    The area is classified as a ``severe'' non-attainment area for the 
1-hour ozone standard. As you may know, ground-level ozone is a 
component of smog. Health problems attributed to ozone exposure include 
increased respiratory symptoms such as chest pain and cough. Exposures 
to ozone can make people more susceptible to respiratory infection, and 
aggravate preexisting respiratory diseases such as asthma. These 
effects generally occur while individuals are actively exercising, 
working, or playing outdoors. Children, active outdoors during the 
summer when ozone levels are at their highest, are most at risk of 
experiencing such effects.
    EPA has approved a State Implementation Plan or ``SIP'' to bring 
the area into attainment with the 1-hour ozone standard by the Clean 
Air Act deadline of 2007. The standard for the 1-hour ozone standard is 
0.12 ppm. For the last 3 years Coachella Valley's design value was 
0.132 ppm. During this period, the area had 12 days above the standard 
at the design monitor in Palm Springs.
    The primary sources of ozone precursor emissions in the area are: 
on-road motor vehicles (51%), off-road engines (25%), and solvent 
evaporation (13%). Both the SCAQMD and California Air Resources Board 
``CARB'' have adopted stringent measures to control ozone precursor 
emissions from on-road and off-road mobile sources, and from the key 
area and stationary sources within the Coachella Valley and upwind in 
the metropolitan Los Angeles area. These State and local controls are 
supplemented by EPA's national mobile source control program. SCAQMD 
and CARB recently strengthened the control measure commitments and 
adopted a new modeling demonstration that the Coachella Valley area 
will attain the 1-hour ozone standard by the 2007 deadline.
c. Coachella Valley and the Natural Events Policy
    The Coachella Valley is susceptible to high wind events that 
generate windblown dust. During the years 1993-2001 the valley recorded 
15 days exceeding the 24 hour average PM<INF>10</INF> standard, all of 
which they documented--and EPA approved--as high-wind natural events. 
Coachella Valley has a Natural Events Action Plan (NEAP) in their 2002 
SIP.
       2. reduced water flows into the salton sea and air quality
    Lower Sea levels will expose shoreline sediments that may become 
airborne. From our experience at Mono Lake and the Owens Lake basin, 
which I will talk about in a moment, we know that windblown dust from 
an exposed dry lake bed can cause high levels of PM<INF>10</INF> which 
is particulate matter smaller than 10 microns in size. Inhalable 
particulates in this size range, especially those associated with toxic 
materials or metals, can have serious health effects for people, 
especially children, the elderly, and those with respiratory illness. 
Our concern regarding airborne impacts from the Salton Sea is based on 
results from initial studies and our experiences at Mono and Owens 
Lakes.
a. Mono Lake
    Mono Lake is located in Mono County in eastern-central California. 
Since 1941, portions of the water from four of the major tributary 
streams have been exported before reaching the lake. From 1974 through 
1989, an annual average of 83,000 acre-feet of water was exported from 
the Mono Basin to the city of Los Angeles.
    Over the past 50 years, the water level of Mono Lake has dropped by 
approximately 45 feet, causing the exposure of approximately 20 square 
miles of new shoreline and an emissive area of 9 square miles. As the 
lake receded, 24-hour PM<INF>10</INF> readings increased from 404 ug/m3 
in 1988 to 900 ug/m3 in 1993. Today, the State of California is 
refilling Mono Lake to its historical level, and although the lake has 
not yet reached that level, the PM<INF>10</INF> levels are declining 
(the highest 24-hour reading in 2001 was 450 ug/m3).
b. Owens Dry Lake Bed
    Owens Lake is located in Inyo County in eastern-central California. 
In 1913, the Los Angeles Department of Water and Power (LADWP) 
completed an aqueduct system and began diverting the waters of the 
Owens River to the City of Los Angeles. By 1930, these diversions had 
drained Owens Lake almost completely dry.
    The Owens dry lake bed is approximately 70 square miles. The 
emissive area is approximately 35 square miles. Strong winds over the 
dry, alkaline bed of Owens Lake have produced the highest measured 
concentrations of PM<INF>10</INF> ever recorded in the US: levels as 
high as 23,000 ug/m3 were measured at the small community of Keeler. 
Annual PM<INF>10</INF> emissions from Owens Lake may exceed 400,000 
tons, and dust transported from the Lake can result in violations of 
the 24-hour PM<INF>10</INF> NAAQS in the town of Ridgecrest 150 miles 
to the south. The dust from the lake bed contains carcinogenic 
compounds, including arsenic, nickel, and cadmium. The State 
Implementation Plan includes control measures such as shallow flooding, 
managed vegetation, and gravel cover to minimize dispersal of 
PM<INF>10</INF> and bring the area into attainment of the Federal 
health standard.
c. Salton Sea
    The conditions at Mono Lake and the Owens Dry Lake are not the same 
as the Salton Sea in their climatic and soil characteristics. We cannot 
predict with confidence potential emissions from the newly exposed 
shoreline at the Sea. However, the potential of exposing 100 square 
miles of shoreline without any mitigation raises concerns about air 
quality impacts. Factors that potentially affect PM<INF>10</INF> air 
quality problems include how the lake crusts over after the water 
recedes; how rain, drying and other forces such as human activities 
might disturb the crust; and, how winds affect emission patterns on the 
dry lake bed. In addition, the soil from the lake bed may contain toxic 
materials. These could be naturally occurring, as in the case of Owens 
Lake, as well as potential contaminates from agricultural runoff. The 
congruence of these factors may cause higher emissions in some areas 
compared to other locations in the vicinity.
    There is some indication that the existing north shore of the 
Salton Sea might be presently emitting PM<INF>10</INF> into the air. To 
understand these potential impacts, the soil type and characteristics 
of the potential new shoreline should be assessed. Models to assess the 
level at which violations of the Federal PM<INF>10</INF> health 
standard may occur should also be employed. And finally, potential 
control measures should be evaluated.
    The experiences at Owens and Mono Lakes should guide our decisions 
concerning the Salton Sea to help prevent violations of the 
PM<INF>10</INF> standard which could negatively impact public health. 
Thank you for extending an invitation to me to provide testimony here 
today. I will be happy to answer any questions that the Subcommittee 
members may have. Thank you.

                                 Notes:

    Air quality data are from EPA's Air data website: (http://
www.epa.gov/air/data/index.html).
    Emissions inventory data are from CARB's 2002 emissions inventory 
website: (http://www.arb.ca.gov/emisinv/emsmain/emsmain.htm).
    Website for both the PM<INF>10</INF> and Ozone SIP's (http://
www.aqmd.gov/aqmp/AQMD03AQMP.htm)

    Mr. Barton. Thank you.
    That concludes the testimony of the first panel. Normally, 
we would ask questions of the first panel seated together at 
the panel table, and then we would go to the second panel. 
Because we don't have a panel table, I'm going to ask our first 
four panelists if they have a time constraint. If they do not, 
I'm going to ask unanimous consent that we let the second panel 
also put their testimony on the record and then ask questions 
of both panels at the same time.
    Is there anybody on the first panel that needs to leave in 
the next 20 minutes?
    Mr. Kirk. No.
    Mr. Barton. Is there objection of the subcommittee to 
letting the second panel put their testimony on the record 
before we ask questions?
    Mr. Buyer. A question on process. Then if we are going to 
have--when it comes to our time and we have a particular 
question, or I don't understand how we are going to do this, if 
you are going to have one person come up are we then going to 
ask only that person?
    Mr. Barton. Well, what we will do when we yield, what we'll 
do, if there's not objection to the unanimous consent request, 
we'll let the second panel put their testimony in the record, 
then I'll recognize in order of seniority the members of the 
subcommittee for 5 minutes, and then a second round for 5 
minutes if they wish, so that you have a total of 10 minutes, 
which you would have had had we done it one panel at a time. 
There's going to be no--we are not going to short sheet anybody 
in terms of time.
    Mr. Buyer. No, I was just thinking if they were going to be 
constantly jumping up and down.
    Mr. Barton. Well, I'm just going to put them right in front 
of us and point to them, and you can point to them.
    Mr. Buyer. All right. I have no objection then.
    Mr. Barton. If they need a microphone we'll get one to them 
or they can step forward.
    Mr. Buyer. No objection.
    Mr. Barton. Okay.
    Hearing no objection, so ordered.
    We'll now go to our second panel. The first testifier is 
Ms. Joan Taylor, who is the Conservation Chairwoman for the 
Tahquitz, if I'm saying that right, Tahquitz Group of the 
Sierra Club, the San Gorgonio Chapter. If Ms. Taylor would come 
forward.
    We're glad to have you, and your testimony is in the record 
in its entirety, and we would ask that you summarize it in 6 
minutes.

 STATEMENT OF JOAN TAYLOR, CONSERVATION CHAIR, TAHQUITZ GROUP, 
  SIERRA CLUB, SAN GORGONIO CHAPTER; EDWARD KIBBEY, EXECUTIVE 
DIRECTOR, BUILDING INDUSTRY ASSOCIATION OF SOUTHER CALIFORNIA, 
   INC., DESERT CHAPTER; JEFF WELTON, SENIOR VICE PRESIDENT, 
   WINTEC ENERGY; AND VINCE SIGNOROTTI, VICE PRESIDENT, REAL 
 ESTATE ASSETS AND COMMUNITY RELATIONS, MID-AMERICAN-CALENERGY

    Ms. Taylor. Thank you, Chairman Barton, members of the 
committee, and especially Congresswoman Bono for twisting some 
arms and getting you all down here and giving us the 
opportunity to speak to this important issue.
    Can you hear me okay?
    Mr. Barton. Yes, ma'am.
    Ms. Taylor. Thanks.
    I'm not going to summarize all the testimony. I just want 
to emphasize two main issues that we need to plan for now, and 
that would be the clean air legislation and the Salton Sea.
    With regard to the clean air legislation, you are having 
some especially beautiful weather, weather that everyone 
pictures when they think of the Coachella Valley. 
Unfortunately, it's not always that way. Most of the time when 
things heat up in the inland basin, that is the Riverside/San 
Bernardino area, which is the dirtiest area in the Nation, we 
get literally a wall of smog going through here. I noticed it 
first about 30 years ago, thought it was a forest fire, but it 
happens all the time now, and particularly in warmer weather.
    So, we, as Buford Crites said, are literally down wind from 
some of the dirtiest air in the Nation, and we have a sensitive 
population here. It's a growing population, a lot of elderly 
people, a lot of people come here with lung ailments, and we 
also have a national park that we shouldn't forget about, much 
of which is in the Coachella Valley, which is always in the top 
three dirtiest national parks in the Nation.
    So, when the Clean Air Act comes up for reauthorization, it 
needs to be kept strong, hopefully strengthened. The new Source 
Review is something that, in particular, could affect the 
Coachella Valley as a down wind receptor.
    In any event, we hope to solve the PM<INF>10</INF> problems 
and hope that you will keep the clean air legislation strong to 
prevent or to ameliorate the wall of smog that does come in 
here and affect our residents and visitors.
    With regard to the Salton Sea, that obviously is a specter 
that makes other problems pale by comparison. In talking with 
Ted Schade of Owens Valley, he said he couldn't even limit what 
our exposure might be. It could be as bad as the Owens Lake. 
And he said, ``Why aren't they meeting up in Owens Lake to see 
what it's really like up there?'' And, it's true, I've been up 
there in a dust storm and it's like a pea soup fog. It's 
incredible, and it's those tiny micron particles that once they 
get in your lungs they don't leave.
    So, it's not too early to be thinking about that. We have a 
10-year window while they are being forced to fallow fields in 
Imperial, and after that they'll start sucking water out of the 
sea, and we'll get this exposed shore line.
    Now, you know how long it takes to study, to plan, to get 
the funding, and then there have to be some years for the 
actual implementation of the measures that are decided upon, 
whether it be shallow flooding, or the planting, whatever they 
decide on. So, we urge you to be thinking about that now, to 
give the requested funding for those steps we can take now to 
prevent another huge health disaster in California.
    I hope you enjoy your stay here, and don't see that wall of 
smog, but keep this in mind, please, and thanks again for your 
consideration of these very important issues.
    [The prepared statement of Joan Taylor follows:]
 Prepared Statement of Joan Taylor representing Tahquitz Group of the 
                              Sierra Club
    Chairman and Members of the Committee: Thank you for the 
opportunity to testify on this important issue. I am speaking for the 
Tahquitz Group of the Sierra Club, which represents Sierra Club from 
the Banning Pass to the Colorado River, including the Morongo Basin on 
the north and the Pinyon area on the south. We appreciate the 
Committee's interest in the air quality problems of this region.
    As you will probably hear from other witnesses, many of whom have 
great expertise in air quality, our Valley's air quality problems 
originate from the Los Angeles metropolitan area as well as from within 
the Valley.
    The Los Angeles-generated component of our air pollution is 
primarily an automobile-generated wall of smog that blows through the 
pass from the west nearly every afternoon. The solution to this source 
is clear: keep the Clean Air Act intact, or even move to strengthen it. 
Attempts to weaken this important legislation could affect the health 
of millions of Californians, including the residents of the Coachella 
Valley. California is on the cutting edge of clean air legislation, and 
we need all the tools possible in order to hold the line and perhaps 
one day win the battle against smog.
    For instance, Congress is currently considering ``reauthorization'' 
of our nation's major transportation legislation. We are concerned that 
several parts of this proposal will lead to worse air quality around 
the country, and here in California. The impact that dirty air from Los 
Angeles has here is a perfect example of how transportation decisions 
can have long term and far ranging impacts. The bill under 
consideration goes the wrong way in this regard. For example, the bill 
cuts the time frame for looking at future impacts from sprawl inducing 
roads in half, from twenty years down the road to ten years, leading to 
projects that may saddle communities with dirty air for a generation. 
In addition, there are proposed changes that would allow State 
Implementation Plans to be less effective. In sum, Congress should fix 
this bill before allowing it to move forward.
    Congress is also considering legislative proposals to reduce 
pollution from power plants. It is well past time that we address this 
critical public health concern. Any proposal should strengthen the 
existing Clean Air Act, not undermine it. Proposals like the Bush 
Administration's so-called ``Clear Skies'' scheme actually gets us less 
pollution reduction than strong enforcement of the Clean Air Act.
    I'd also like to address an issue that is not currently before 
Congress. The Environmental Protection Agency has weakened the New 
Source Review program of the Clean Air Act in the last year. This 
program, which requires factories, including power plants and 
refineries, to install modern pollution technology when they make 
changes that increase pollution, is a proven success. Unfortunately, 
EPA has finalized rule changes that create gaping loopholes, leading to 
the chance of tremendous pollution increases. One of the worst of these 
changes was blocked by a federal court on Christmas Eve, to the relief 
of breathers everywhere.
    It is important to know we have a national park here that is 
affected by air pollution. 85% of Joshua Tree National Park lies within 
Riverside County, much of that in the Coachella Valley. Unfortunately 
this park has the dubious distinction of being among the three national 
parks with the dirtiest air. This year, for example, ozone levels in 
the Park exceeded 8-hour health standards on 40 days, resulting in 
warnings for citizens to avoid outdoor activities, which is exactly 
what they come to the Park to pursue. Joshua Tree also is one of the 
five worst parks for nitrogen deposition, resulting in the 
proliferation of non-native grasses, which in turn fuel wildfires. 
Regional haze in Riverside County is also a problem for the Park, and 
visitors regularly complained about obscured views from the Park's 
famous viewpoints.
    As regards the locally generated particulate matter pollution, 
there are several areas of concern, each with its own problems and 
potential solutions.
    First, as generally agreed by those with greater expertise in this 
field than I, the Coachella Valley's particulate pollution problem is 
not actually caused by the sporadic sandstorms that blow through the 
center of the Valley and have in fact created a series of dunes here. 
For one thing, these events occur on a relatively small number of days 
during the year, and for another, the blowsand grains they move 
actually contains a relatively small amount of fine particulates. This 
of course assumes that the wind is blowing across undisturbed desert, 
not a disturbed construction site or dirt road. Also, it is worth 
noting that the particle size of blowsand granules at the west end of 
the Valley is larger and coarser that at the east end, where there are 
remnants of fine sediments from ancient inland lakes that once covered 
much of that area.
    So it is generally accepted that the particulate pollution 
generated here in the Coachella Valley comes primarily from earthmoving 
activities associated with construction, and from vehicles, including 
heavy diesel truck traffic on Interstate 10, with Off Highway Vehicle 
(OHV) use and conventional vehicle use on unpaved surfaces making 
lesser contributions. Because of the Coachella Valley's continued non-
compliance with air quality standards, a State Implementation Plan has 
zeroed in on the type of fugitive dust emissions that are produced by 
construction and construction vehicles, as well as other vehicles on 
dirt roads, but interstate truck traffic and OHV use are more difficult 
to regulate.
    At this time OHV use is not a major particulate concern, since the 
demand for this pastime is not great, because of the large elderly 
population in this Valley. However, there is potential for a big 
increase in particulate generation from OHVs. This is because the 
Bureau of Land Management has recently proposed siting an Off Highway 
Vehicle ``open area'' in the east end of the Coachella Valley. This is 
a bad idea. In the first place, currently there is a relatively small 
local demand for an OHV open area.
    Secondly, there exist three such OHV play areas within 50 to 75 
miles of the Coachella Valley, namely Johnson Valley and Stoddard 
Valley to the north and the Imperial (Algodones) Dunes to the south. By 
creating a new OHV open area here, BLM would surely create a magnet to 
attract new OHV use to the Coachella Valley and result generating 
significant additional and uncontrollable particulate pollution here. 
Thirdly, the BLM is proposing this new open area in the east end of the 
Valley, where the sands are the finest and most likely to generate 
large uncontrolled amounts of particulate pollution. Perhaps this 
project does not fall under the jurisdiction of your committee; 
however, it is a potential large contributor to our problem of which 
you should be aware.
    Another threat to air quality in the Coachella Valley is the siting 
of power plants here. Two years ago, there were five gas burning power 
plants on the drawing boards to be sited here. These plants would have 
produced enough power to serve 4 million people, over 10 times that 
needed for our valley. Given this valley's existing non-compliance with 
air quality standards and given its elderly population which is more 
sensitive to air pollution, it hardly needs to be said that this is an 
inappropriate place to generate power for the southwest region. We 
already have one trash burning plant, one gas-fired ``peaker'' plant, 
one proposed pump storage plant, and many, many windmills generating 
power here. If anything, the Coachella Valley is an appropriate 
location for solar power. It is not a good location for conventional 
power plants, both because of air quality concerns and water supply 
issues.
    Another concern is corporations purposely siting power plants and 
other air polluting facilities on Indian Reservation land in the 
Valley. The existing large trash burner, named Colmac, is on Indian 
land. Additionally, at least one of the five other proposed power 
plants was slated to be located on Indian land as well. There has also 
been an unpermitted sewer sludge drying operation as well as continued 
general trash burning on Indian Reservation. We surely support Native 
American sovereignty, but we feel that our health and air quality laws 
need to be respected, and we look to the federal government to ensure 
that happens.
    But there is one threat to the air quality here that makes the 
others pale by comparison. That is the specter of particulates, 
probably laced with selenium and other pollutants, which would be 
exposed if the Salton Sea is allowed to shrink. If the experience at 
Owens Lake has taught us anything, it is that it is better to deal with 
this issue sooner rather than later. By 2006, the Los Angeles 
Department of Water and Power will have spent over $400 million 
wrestling with the Owens Lake problem, and the ongoing remediation cost 
will be 15 million a year. Thirty square miles of exposed shoreline at 
Owens Lake generates an average of 80 thousand tons of PM<INF>10</INF> 
a year. How much airborne particulate would the projected 50 to 100 
square miles of exposed shoreline at the Salton Sea generate? We don't 
know for sure, but it would be a huge source of particulates even if 
generated only a fraction of that generated from our northern 
counterpart. And the costs of remediation would be equally large or 
larger, due to the additional wildlife concerns.
    So, when it comes to the Salton Sea we can pay something to deal 
with this issue now, or we can pay a lot more later. How much the 
eventual cost will be is debatable. But undoubtedly it will meet or 
exceed the cost of Owens Lake, because it must include both preserving 
the Sea's value for wildlife as well as fully mitigating any air 
quality impacts of shoreline exposure, should that happen.
    Who has responsibility for potential air quality problems caused by 
a shrinking Salton Sea? We believe it is a major federal 
responsibility. Not only does the federal government have 
responsibility under the Clean Air Act and the Salton Sea Restoration 
Act, but also under the Endangered Species Act and the Migratory Bird 
Treaty. There is also a National Wildlife Refuge on the Sea, and 
formerly a naval weapons test base there. The $130 million provided by 
the Imperial and San Diego water swap is clearly inadequate mitigation, 
especially since much of this funding is dedicated to other problems 
that are not associated with potential air quality problems caused by a 
shrunken Salton Sea.
    In conclusion, we appreciate the Committee's interest in Coachella 
Valley air quality issues, and urge retention and strengthening of 
vital federal air quality standards, as well as taking federal 
responsibility to ensure that the Salton Sea does not become another 
Owens Lake health disaster, which in this case would affect hundreds of 
thousands of people, not just ten thousand as in the case of Owens 
Valley.
    Thank you for the opportunity to make input on these vital issues.

    Mr. Barton. Thank you.
    We now want to hear from Mr. Edward Kibbey, who is the 
Executive Director for the Building Industry Association of 
Southern California, Desert Chapter.
    If Mr. Kibbey would come forward.

                   STATEMENT OF EDWARD KIBBEY

    Mr. Kibbey. Thank you very much, Chairman Barton, and 
members of the subcommittee, and we want to thank you very much 
for coming out and getting our problems first person, if you 
will. And, Congresswoman Bono, you just continue to do your 
outstanding job so no additional thanks are required.
    It always amazes me that something that is almost too small 
to see is measured in tons. It's unreal. So, when you figure 
out that in addition to PM<INF>10</INF> rising into the air, 
there's just an awful lot of larger particles, sand, dust and 
so on. It's been commented that it's too bad that you didn't 
come down on a windy day and see some of our sand and dust, but 
I'm glad you didn't, because now you know it's so beautiful 
you'll come back and spend more money. This is good.
    The building industry is interested in money, as you might 
expect, but we're also interested in the health of our buyers, 
those who come to the desert to live. Now, I represent both the 
Coachella Valley and the Imperial Valley. The Salton Sea is a 
large concern of ours, a concern that will come to fruition, no 
question. The sea will subside, get smaller, there will be 
dust, so it's up to us to limit how much.
    How much effect are we going to allow on the Coachella and 
Imperial Valleys from a sea that has for years been a real 
great place to go, lately not quite so great, but can return as 
a great place to go, and something that Tom Kirk and his group, 
and Congresswoman Bono, are working hard to make happen.
    From a builder's perspective, I guess all of you have been 
down around the Salton Sea, there's an awful lot of buildable 
land down there, an awful lot of area to place houses, to bring 
more people to the desert to enjoy what we enjoy on a day-to-
day basis. So, yeah, something needs to be done.
    It's going to cost a lot of money, and we haven't got it 
here in the Coachella Valley or the Imperial Valley, so we are 
going to need your help. I know, you haven't got a lot of money 
either. Each one of you has your own perspective of where those 
limited bucks should go, but I think here you have what could 
be a choice to protect a national monument, if you will, the 
Salton Sea. It's so big it deserves to be a monument. Or, you 
have the choice to sit back and say, well, we just really don't 
have the bucks and, by golly, it's not my problem anyhow.
    So, the building industry, if we have one request, would be 
that you listen to Congresswoman Bono who is the messenger from 
this area, and you listen to the message that she brings you. 
And, when she says that we need some millions of dollars to do 
something, I'll guarantee you this, she'll come to you with not 
something but what we need to do. That's coming, so be 
prepared, and please help us out.
    As you have seen from my testimony, and you've heard from 
others, we have recovered here in the Coachella Valley and are 
recovering yet again. We've shown that we, the building 
industry, we, the cities and county, we, the citizens, can, 
indeed, join together and understand that there is pain, but 
yet take that pain to make our home a better place to live. 
We've done it before, we'll do it again, but let's not wait 
until the time comes that we have those tons of PM<INF>10</INF> 
in the air coming into the area. Let's get to it now, let's 
correct it now, it is correctable, but it's going to cost a lot 
of money.
    Again, thank you very much for coming to our wonderful 
valley, and we thank the Lord for giving you such a beautiful 
day so you can why we are so proud of where we live.
    Thank you.
    [The prepared statement of Edward Kibbey follows:]
 Prepared Statement of Edward C. Kibbey, Executive Director, Building 
           Industry Association of Southern California, Inc.
    As we sit here today, the Coachella Valley is in non-compliance 
with PM-10 Air Quality Standards as established by the Environmental 
Protection Agency (EPA). Again, as we sit here today, cities of the 
valley and the county are taking steps to adopt new rules that will 
bring the valley back into compliance with PM-10 air quality 
requirements.
    These two statements speak to the constant cooperation between the 
South Coast Air Quality Management District (SCAQMD), local government 
agencies and the local building community and their dedication to 
making our local environment the healthiest in the world.
    For years now, these entities, public and private, have worked 
together to keep our environment healthy. Whether it's clean water, 
clean air or endangered species, the valley has a long history of 
working together to make it happen.
    A number of years ago, the valley overcame unbelievable odds to 
bring our air quality into compliance and we retained that standard for 
a few years. Then came a building boom, a drought and a couple of 
seasons of high winds and all of a sudden we were no longer in 
compliance. Without changing any of our previously successful 
procedures, our dust problem increased to such a point that something 
had to be done.
    SCAQMD came down and told us that we were headed for trouble, but 
could forestall disaster if we got together and designed new procedures 
which would improve our existing dust control rules. Over the next few 
months, committees met and soon came to agreement on new rules which 
were workable for both the Air District and those affected, meaning 
every citizen of the Coachella Valley. The local building industry 
agreed to more restrictions with the understanding that they would cost 
more money; The cities and the county agreed to new rules which would, 
for the first time, bring them into the realm of those responsible for 
controlling their own PM-10 generation; The agricultural industry 
realized that they would no longer be virtually exempt from controlling 
dust and those owners of vacant land found themselves facing 
requirements to control use of their properties.
    After months of meetings . . . of give and take by all participants 
. . . a model ordinance was put together one which satisfied both the 
SCAQMD and, perhaps more importantly, the EPA. Shortly, this ordinance 
will be adopted by all entities and go into effect. We are hopeful that 
this effort will result in our valley returning to full compliance with 
PM-10 regulations.
    One might say that this is a wonderful thing, this voluntary giving 
up of money and freedom for the good of all, and they would be right. 
But there was more than public spiritedness and the willingness to do 
right that drove this effort. There was the very real threat that the 
Environmental Protection Agency would storm into town and take over, 
restricting our ability to carry on life as we know it and casting a 
draconian regulatory net over the entire valley until such time as we 
were able to meet their requirements. Our real fear that building and 
growth in the valley would be brought to a halt gave us the impetus to 
make things work.
    As elsewhere in the nation, construction of new homes has been the 
primary economic driver here in the Coachella Valley, with nearly four-
thousand new homes being built each year. The folks who have been 
buying those homes are, more and more, those buying a primary residence 
with less of them making their purchase as a second home. These are 
people who are making the Coachella Valley their home, and they are 
vitally interested in the quality of air they breathe. This then brings 
us to the future and the potential negative effect of the Salton Sea.
    This huge body of water has the potential to become one of the 
biggest health hazards since the drying up of the Owens Valley in 
Central California. If the Salton Sea situation were to remain status 
quo, it is probable that the water level will drop which will expose 
miles of sea bottom which will provide thousand of tons of material to 
be picked up by the winds and carried to the Coachella Valley as PM-10. 
Such an occurrence would shortly ruin life as we enjoy it today and has 
the potential to turn the valley into a modern day Death Valley, devoid 
of tourists and long on houses for sale with no buyers.
    We have learned how to control our own dust problem and will 
ultimately return as the shining star of EPA accomplishments, but we 
are having difficulty understanding how we can dodge the Salton Sea 
bullet given the distance to the problem and the lack of funding to 
correct the problem. So now, we are looking to the Federal and State 
Governments for help, hopefully without too many strings which could 
strangle any recovery in bureaucratic nonsense.
    Thank you for your attention.

    Mr. Barton. Thank you, sir.
    We now want to hear from Mr. Jeff Welton, who is the Senior 
Vice President for Wintec Energy in North Palm Springs.

                    STATEMENT OF JEFF WELTON

    Mr. Welton. Good morning. My name is Jeff Welton, as the 
chairman so said. I'm Senior Vice President of Wintec Energy, 
and we are based in Palm Springs, the western end of the 
Coachella Valley.
    Wintec has been in the wind energy business since 1985, and 
we manage and operate about 66 megawatts of wind energy 
projects, most of which are located here in the Coachella 
Valley.
    Wintec is a member of the California Wind Energy 
Association, CalWEA, which I am representing here today.
    In my remarks today, I'd like to give you a brief sketch of 
wind energy in the valley and the State as a whole, and talk 
about the contribution that wind energy makes to our air 
quality, as well as its potential to further improve air 
quality in both the electric and transportation sectors.
    My written statement provides further detailed information 
on this matter.
    The Coachella Valley is host to over 600 megawatts of wind 
energy capacity, which represents about a third of California's 
wind energy projects, and when combined with the rest of the 
State's wind projects supply about 1.5 percent of California's 
electricity needs.
    CalWEA estimates that annually California's existing wind 
energy projects avoid over a million pounds of NO<INF>X</INF> 
emissions and over a million pounds of PM<INF>10</INF> 
emissions. Renewable energy of all types, excluding large hydro 
power, supplies about 11 percent of California's electricity 
needs, more renewable power than any other State.
    California's historical promotion of renewable energy has 
greatly reduced the demand for combustion fired generation in 
the State, which helps to explain why California's electric 
sector accounts for only 3 percent of the state's 
NO<INF>X</INF> emissions and less than .5 percent of 
California's PM<INF>10</INF> emissions.
    Over the next 10 years, however, it is estimated that 
California will need in excess of 10,000 megawatts of new 
generation. To significantly reduce the environmental impacts 
of this new generation on our local air quality, it will be 
important to meet much of that demand with emission-free wind 
energy. California is aiming to do just that with the recent 
adoption of its ``Renewables Portfolio Standard,'' a policy 
requiring our State's utilities to get 20 percent of their 
electricity supply from renewable energy by the year 2010.
    The California Energy Commission envisions that wind energy 
could comprise two thirds of the renewables that will be needed 
to meet this goal. CalWEA estimates that this new wind power 
would avoid over a million pounds of NO<INF>X</INF> emissions 
and over a half a million pounds of PM<INF>10</INF> emissions 
annually, that would otherwise come from new natural gas-fired 
power plants. Clearly, wind energy has the potential to play an 
important role in minimizing air impacts on the electric sector 
on the Coachella Valley and the rest of California.
    Wind energy also holds potential for the transportation 
sector. An important element of AQMD's Air Quality Management 
Plan is to achieve major use of zero emission vehicles. Fuel 
cells are considered to be an ideal solution for zero emission 
vehicles because they can provide high fuel efficiency and zero 
emissions, while still matching the long range and rapid 
refueling capabilities of cars that we drive today. Hydrogen 
fuel cells are truly ``cradle-to-grave'' zero-emissions 
propulsion systems when they are powered by hydrogen generated 
from renewable fuels, rather than from other fuel sources that 
pollute.
    My company, Wintec Energy, is currently participating in a 
project funded by the AQMD and the U.S. Department of Energy 
where wind energy is used to generate hydrogen that will be 
used in vehicles operated by the California Fuel Cell 
Partnership. It is expected that the fuel cost per mile will be 
similar to what we now pay for hydrocarbon fuel, but without 
diminishing our air quality.
    It is estimated that only six of our modern 1.5 megawatt 
wind turbines could provide enough hydrogen fuel for all of 
Coachella Valley's transit and public agency vehicles. Thus, 
wind energy holds significant promise in reducing emissions 
generated in the transportation sector, as well as the electric 
sector.
    In closing, there are a few things that Congress can do to 
aid the development of wind energy so that our industry can 
provide air quality, not only here in the Coachella Valley and 
our State, but also country-wide. Approve the passage of the 
energy bill which includes an extension of the Federal wind tax 
credit, also known as the PTC, and authorize the development of 
additional utility transmission capacity that will be necessary 
to transport additional wind electricity to load centers.
    Thank you very much for inviting the California Wind Energy 
Association to present its views today. Thanks.
    [The prepared statement of Jeff Welton follows:]
   Prepared Statement of Jeff Welton, Senior Vice President, Wintec 
   Energy, Ltd., on Behalf of the California Wind Energy Association
                              introduction
    Good Morning. My name is Jeff Welton. I am Senior Vice President of 
Wintec Energy, Ltd. Wintec has been in the wind energy business since 
1985. Wintec manages and operates over 53 MW of wind energy projects 
here in the San Gorgonio Pass (which is the western mouth of the 
Coachella Valley) and another 13 MW up north in the Altamont Pass east 
of San Francisco. In total, our wind projects provide California with 
66 MW of wind capacity and more than 170 GWh annually.
    I am here today representing the California Wind Energy Association 
(``CalWEA''), of which Wintec is a member. CalWEA is a trade group 
comprised of 27 companies, including wind plant owners and project 
developers, turbine manufacturers, and various businesses that provide 
services to the wind industry. CalWEA represents the industry primarily 
in California energy policy forums, and occasionally in Congress on 
energy matters uniquely affecting the California wind industry.
    Today I will give you a brief sketch of wind energy in California, 
the future potential of wind energy in the state, wind's potential to 
contribute to air quality improvements in the Coachella Valley, and 
some of the ways in which Congress can promote the growth of wind 
energy so that we can help to reduce the air quality problems in the 
Valley and the rest of the state.
            a brief history of wind generation in california
    California's implementation of the federal Public Utility 
Regulatory Policies Act of 1978 launched the wind industry worldwide. 
That policy yielded on the order of 7,000 megawatts of renewable energy 
capacity, including approximately 1,600 MW of wind generation capacity. 
A key provision of PURPA is the requirement that utilities pay 
generators of renewable energy what they otherwise would have paid for 
power. California was somewhat unique among the states in that it 
required the utilities to sign long-term contracts at these ``avoided 
costs.'' At the time these contracts were signed, in the early 1980s, 
prices were projected to be very high. The contracts thus locked in 
what, in retrospect, were relatively high prices. These contracts 
allowed investments in brand new technologies that had a lot of risk 
associated with them; but for those contracts (and tax credits), these 
projects--which spurred the commercial development of wind technology 
globally--would never have been built. The utility companies often 
argue that PURPA resulted in over-priced renewables, but it is 
important to note that the power the state's utilities would otherwise 
have acquired--the coal and nuclear plants that they had on their 
drawing boards--would have been far more expensive, as documented by 
California's energy agencies.<SUP>1</SUP> Coal-fired generation in 
place of emission-free renewables like wind would only have exacerbated 
an already dire air quality situation in the State.
---------------------------------------------------------------------------
    \1\ California Energy Commission and California Public Utilities 
Commission, Final Report to the Legislature on Joint CEC/CPUC Hearings 
on Excess Electrical Generating Capacity, P150-87-002 (June 1988) at p. 
65.
---------------------------------------------------------------------------
    California's large base of renewables provided stability during the 
state's recent ``energy crisis.'' These projects produced power without 
interruption, and without the commodity risk of natural gas-fired 
generation, throughout the tumultuous market of 2000 and 2001, even 
during the several months when they were not being paid by California's 
troubled utilities. These projects provided enormous benefits to 
consumers because they were paid under stable, contract-based prices, 
not the distorted spot market prices that were paid to merchant 
generators.
   current status of wind generation in california and the coachella 
                                 valley
    The San Gorgonio Pass is host to approximately 600 megawatts (MW) 
of generation capacity fueled by the wind--about a third of the state's 
wind energy capacity which, in total, provides for about 1.5% of 
California's electricity needs. When the wind is blowing, it powers the 
entire Coachella Valley, avoiding the need for combustion generation. 
Wind and other types of renewable energy--geothermal, biomass, solar, 
and small hydro--together provide about 11% of the state's electricity 
from resources indigenous to the State.
    Most of the wind turbines that you see when you fly into the Palm 
Springs airport or drive into the valley on Interstate 10 are second-
generation wind turbines that were installed in the mid-1980s. Though 
most of them continue to operate well, they are the wind industry's 
ancient history. Wind technology has improved dramatically since then, 
as you can also see here in the San Gorgonio wind resource area with 
some of the new projects that have been installed more recently. 
Whereas the old turbines stand about 120 feet above the ground 
(measuring to the tip of the highest blade), the new turbines stand 400 
feet above the ground. Whereas a second-generation turbine might 
produce 200,000 kilowatt-hours (kWh) in a year, a new fourth generation 
turbine will produce 5.6 million kWh--about 28 times more. Some of the 
major changes in the technology include:

 taller turbine towers, which access higher wind speeds,
 longer blades, which capture more wind energy, and
 advances in electronic monitoring and controls, blade design, and 
        other features.
    Effectively, the wind industry went from a Model T to a Lexus in 25 
years. The result is dramatically reduced wind costs: the cost of 
energy from most of the wind projects that you see out there was 
originally about 30 cents per kilowatt-hour (kWh). Today, a large wind 
farm can produce electricity at 4 to 5 cents per kWh or less.
    An important goal of the California wind industry is to replace the 
early-vintage turbines with new technology. Because the new turbines 
are so much larger and produce so much more power, a single new turbine 
will replace 20 of the older turbines while producing 50% to 100% more 
energy. Along with the additional energy, visual aesthetics are 
improved as well. With the replacement of the second-generation 
technology, the 3,000 turbines that you see out there right now will 
eventually be reduced by half. But there is an obstacle in our way, as 
I will discuss in a moment.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Originally, there were approximately 6,000 turbines in the San 
Gorgonio Pass area. With replacements of old turbines and the addition 
of new projects, there are now approximately 3,000.
---------------------------------------------------------------------------
   wind energy & implications for air quality in the coachella valley
A. Electric Sector
    The state's historical promotion of renewable energy--which as I 
mentioned now provides 11% of the state's electricity, exclusive of 
large hydropower--has reduced the demand for combustion-fired 
generation in the state. Power plant retrofit requirements have 
significantly reduced emissions from the state's natural gas-fired 
electricity generators, so that they account for only 3% of nitrogen 
oxides (NO<INF>X</INF>) emissions and 0.47% of PM<INF>2.5</INF> 
emissions in the state.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Electricity and Natural Gas Assessment Report, December 2003, 
California Energy Commission.
---------------------------------------------------------------------------
    However, demand for electricity generation is the fastest growing 
segment of California's gas usage. Over the next 10 years, the 
California Energy Commission estimates that 10,000 MW of generating 
capacity or demand-reducing resources will be needed to meet growing 
demand.<SUP>4</SUP> In order to contain the environmental impacts of 
that generation on Coachella Valley air quality, it will be important 
to meet that demand in significant part by emission-free wind and other 
renewable resources, as well as with increased energy efficiency and 
demand reduction.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    In 2002, the California Legislature made a commitment to doing just 
that when it adopted a policy called the ``Renewables Portfolio 
Standard'' or ``RPS'', which will require California's investor-owned 
utilities and competitive retail suppliers to derive 20% of their 
retail sales from renewable energy by 2017. The state's energy agencies 
have adopted a goal of meeting this requirement by 2010,<SUP>5</SUP> 
and the Energy Commission has recommended that the RPS requirement be 
extended to cover the state's municipal utilities.<SUP>6</SUP> The 
state's portfolio requirement approach ensures the same sort of risk 
minimization approach one uses for a 401k plan.
---------------------------------------------------------------------------
    \5\ State of California Energy Action Plan. See http://
www.cpuc.ca.gov/PUBLISHED/REPORT/28715.htm.
    \6\ 2003 Integrated Energy Policy Report, December 2003, California 
Energy Commission.
---------------------------------------------------------------------------
    The Energy Commission envisions that wind energy--because of its 
low cost relative to other renewables and abundant wind resources in 
the state--could comprise 66% of the renewable energy required to meet 
this goal. This would require that the state's current renewable energy 
capacity be more than quadrupled by adding over 6,000 MW of wind 
generation capacity.<SUP>7</SUP> Replacing existing wind turbines with 
more productive new turbines is also an important means of achieving 
the state's RPS goals.
---------------------------------------------------------------------------
    \7\ Renewable Resources Development Report, California Energy 
Commission, November 7, 2003.
---------------------------------------------------------------------------
    As you can see, therefore, wind energy can and should play an 
exceedingly important role in minimizing the air quality impacts of the 
electric sector on the Coachella Valley as well as the rest of 
California in the near future and for decades to come.
    Finally, we wish to make a few additional points. First, by 
reducing the demand for natural gas, California's renewable energy 
goals will also put downward pressure on the price of gas for all 
consumers. Second, wind energy adds significantly to the reliability of 
the electric system while imposing extremely low system integration 
costs.<SUP>8</SUP> Lastly, the wind industry is a significant part of 
the economy of the Coachella Valley, providing hundreds of jobs and 
contributing significantly to the tax base here.
---------------------------------------------------------------------------
    \8\ This was shown in a recent study performed for the California 
Energy Commission with participation from the California Independent 
System Operator. See http://cwec.ucdavis.edu/rpsintegration/.
---------------------------------------------------------------------------
B. Transportation Sector: Wind-powered Electric Vehicles
    Wind energy's potential extends beyond the electric sector. Wind 
energy has the potential to play a role in reducing vehicle emissions, 
which is a large source of the air quality problem in the Coachella 
Valley as you will undoubtedly hear from other panelists today. An 
important element of the South Coast Air Quality Management District's 
Air Quality Management Plan is to achieve major use of zero-emission 
vehicles (ZEVs) in its jurisdiction. Over the mid- to long-term, fuel 
cells are considered to be an ideal solution for ZEVs because they can 
provide high fuel efficiency and zero emissions, while also matching 
the long range and rapid refueling capabilities of the cars we drive 
today. When powered by hydrogen that has been made from renewable fuels 
like wind energy, hydrogen, fuel cells are truly ``cradle-to-grave'' 
zero-emissions propulsion systems. Because of its low cost, wind energy 
holds large promise for large scale economic ``green hydrogen'' 
production.
    My company, Wintec, is currently involved in a project funded by 
the AQMD and the U.S. Department of Energy to investigate the economic 
feasibility of the wind-hydrogen option on a utility scale. It is 
expected that the fuel cost per mile will be similar to what we now pay 
for hydrocarbon fuel, but we will not have to pay for the health and 
environmental damage. As part of the project, wind energy will be used 
to generate hydrogen, which will be compressed and stored for use in 
either a fuel cell bus or other vehicles operated by the California 
Fuel Cell Partnership. Each of our existing, early-vintage turbines 
generate enough electricity to produce over 3,000 kg of hydrogen 
annually--enough to power a hydrogen bus for about 30,000 miles. The 
local transit agency, which serves the Valley and is participating in 
this project, as well as the City of Palm Desert have the capability to 
fuel hydrogen vehicles.
    Filling up with hydrogen was almost unheard of a decade ago, but 
now there are six hydrogen filling stations in California. Within the 
next two years, that number is expected to double, and over 30 more 
fuel cell buses will go into service. Europe and Japan are moving much 
faster. Here's what the future could look like here in the Coachella 
Valley:

 Six modern 1.5 MW wind turbines could provide fuel for all of 
        Coachella Valley transit and public vehicle needs. (Though wind 
        energy is intermittent, hydrogen provides a means of storage, 
        though storage facilities must be developed.)
 60 modern turbines could provide fuel for 20,000 cars (a car for 
        every 12 persons in the Coachella Valley).
 Long-term, a hydrogen pipeline network, similar to present natural 
        gas lines, would connect wind hydrogen generation to fueling 
        stations.
    Therefore, wind energy holds promise to reduce not only the 
emissions generated in the electricity sector, but also in the 
transportation sector.
                   obstacles to growth in wind energy
    There are a number of state and federal policies that will be 
important in realizing the potential of wind energy in the Coachella 
Valley. In the very near term, there are three important things that 
the Congress can do to promote the development of wind energy.
    First, delay in the passage of the Energy Bill resulted in the 
expiration of the federal wind production tax credit (PTC), creating a 
``boom-and-bust'' cycle for the industry--contracts have been put on 
hold, workers have been laid off, and the momentum in the U.S. wind 
energy market has come to a halt. The wind industry needs the three-
year PTC extension that was included in that bill.
    Secondly, there is a provision contained in the PTC <SUP>9</SUP> 
that discourages the repowering of the wind projects here in the San 
Gorgonio Pass and elsewhere in the state. It does so by denying the tax 
credit to repowered projects unless the project owner amends his 
existing power purchase contract to reduce the purchase price for the 
additional power. This outmoded provision has the effect of reducing 
California's share of the federal tax incentives to increase wind 
generation. We ask for your help in removing this provision when the 
PTC is extended.
---------------------------------------------------------------------------
    \9\ Paragraph 7 of Subsection 45(d) of the Internal Revenue Code.
---------------------------------------------------------------------------
    Finally, the development of additional transmission capacity will 
be necessary to transport wind energy to load centers in the state. 
Care should be taken to see that federal policies do not result in 
impediments to fair and economic access to the transmission grid.
    Thank you very much for inviting the California Wind Energy 
Association to present its views today. I would be happy to answer any 
questions.

    Mr. Barton. Thank you, sir.
    Our last witness, but certainly not least, is Mr. Vince 
Signorotti. He's the Vice President for Real Estate Assets and 
Community Relations for MidAmerican CalEnergy. Welcome to the 
Subcommittee, you are recognized.

                  STATEMENT OF VINCE SIGNOROTTI

    Mr. Signorotti. Thank you, Mr. Chairman, and thank you, 
members of the committee. It's a pleasure to be here.
    As Mr. Barton said, I'm Vince Signorotti, and I'm with 
CalEnergy Operating Corporation. CalEnergy Operating 
Corporation is a subsidiary of MidAmerican Energy Holdings 
Company, which is based in Des Moines, Iowa. And, with me today 
is Jonathan Weisgall, who is Vice President for Legislative and 
Regulatory Affairs. So, we appreciate the opportunity to be 
here, and to discuss this important topic.
    You've heard a lot about particulate matter, and 
PM<INF>10</INF>, and air emissions and so forth, and I think 
that it's important to also discuss what we are doing in 
Imperial County, where I've been a full-time resident for about 
15 years.
    California, as you know, faces an extraordinary challenge 
in seeking to increase electric generating capacity, while 
meeting Federal clean air compliance requirements. While the 
State has approved a few power plants over the past 3 years, 
long-term supply and demand forecasts are still not favorable. 
For many years, Californians have lived on power imported from 
out of State, because we simply do not have enough in-state 
electric generating capacity to meet our demands during the 
warmer months, and clearly this was one of the proximate causes 
for the energy problems that we experienced in the fall of 2000 
and in 2001.
    While we have long imported power from other States to meet 
demand, we are now seeing power plants operating across the 
border in Mexico that send electricity into southern California 
and airborne pollution into the Imperial and Coachella Valleys. 
I do not have any short-term answers for the Clean Air Act 
compliance challenges that these emissions pose for our area, 
but I strongly believe that the best long-term solution is to 
generate more clean energy from our indigenous resources here 
in California to serve the needs of our State.
    California, and Coachella Valley in particular, is 
fortunate to have some of the most abundant reserves of 
renewable energy in the world, geothermal and wind in 
particular, and you just heard from Mr. Welton with regards to 
the potential for wind, the amount of energy that's already 
being produced from wind here in the Coachella Valley. 
CalEnergy, on the other hand, is one of the world's largest 
developers of renewable energy projects. Today, we generate 340 
megawatts of clean, reliable, renewable baseload energy for 
California's energy consumers. Less than a month ago, we 
received approval from the State for a new 185 megawatt 
expansion of our facilities near Calipatria. This will 
represent the largest geothermal energy project anywhere in the 
United States. This power is produced without the significant 
air emissions typically seen from non-renewable resources. 
Compared to the natural gas power plants currently operating 
within sight of the U.S.-Mexico International Boundary, our 
existing geothermal plants offset hundreds of tons of nitrogen 
oxide, carbon monoxide and other particulate matter.
    Geothermal power, as the word implies, is energy that comes 
from the heat of the earth. Production wells at our Salton Sea 
facilities extract the geothermal brine from underground 
reservoirs. The super-heated brine is brought to the surface, 
flashed to steam, and used to turn a turbine. These wells range 
in depth from about a mile to two miles deep. After extraction 
of the heat, the brine is reinjected back into the geothermal 
reservoir. A well-managed geothermal reservoir is, thus, a 
sustainable resource, a virtual closed-loop system, as we have 
seen at the Salton Sea, where there has been no measurable 
decrease in pressure in the geothermal reservoir since 
production began in the early 1980's.
    About 2,600 megawatts of geothermal energy are produced in 
the western States, and over 5 percent of that comes from 
California's 50 plants. Nevertheless, geothermal and other 
renewable energy developments continue to face serious 
challenges, such as the physical limitations on the size and 
location of the resource; high up-front capital costs; and, 
importantly, transmission constraints in delivering power from 
these remote regions to load centers.
    While there is nothing policymakers can do about the 
physical limitations of renewable resources, Congress can and 
should take steps to assist us in overcoming the hurdles posed 
by high up-front capital costs and physical constraints. For 
example, we are extremely encouraged that the comprehensive 
energy bill report expands the Section 45 production tax 
credits for renewable electricity to cover geothermal energy. 
This provision represents the single greatest incentive to the 
expanded production of renewable energy, including geothermal 
development in the nearby Imperial Valley. And, the new plant 
that I mentioned, if constructed, would represent the largest 
single investment in Imperial County ever, at about $450 
million, and that is in a county that has, typically, one of 
the highest unemployment rates in the country, and I think 
today it hovers at around 20 percent.
    In the meantime, uncertainty created by the failure to pass 
the energy bill has cast a shadow over other renewable energy 
development. As you know, markets hate uncertainty, and within 
markets investors hate uncertainty the most.
    The other major impediment to expanding the production and 
delivery of renewable energy in the Imperial Valley and 
throughout California is the need to expand transmission 
infrastructure. A recent study by industry and university 
experts suggests that if fully developed the Salton Sea 
Reservoir could support in excess of 2,300 megawatts of energy. 
However, in order for that potential to be realized, we must 
have greater transmission capacity. No new significant 
transmission lines have been built in the area since the 
completion of the 230-KV line in 1987. That line was built 
specifically to transmit renewable energy from Imperial County 
to population centers. The construction of new transmission 
facilities and the improvement of the existing transmission 
system through this congestion is imperative to the future 
development of clean, renewable resources.
    The proposals in the comprehensive energy bill that would 
provide incentives for the construction of these new electric 
transmission facilities coordinate Federal agency approvals of 
transmission line siting, and establish a Federal backstop for 
resolving interstate transmission bottlenecks are all strong 
positive actions Congress should take.
    The strong tax, policy, and research and development 
measures in the energy bill will help ensure that future U.S. 
electricity supplies will be available from a diverse, 
domestic, renewable resource base. As a result, Coachella 
Valley, California and the rest of the country will see 
improved reliability, lower consumer costs, greater investments 
in renewable energy, improved air quality, enhanced U.S. energy 
security and more jobs. Simply put, the comprehensive energy 
bill before Congress does more to increase the domestic 
production of renewable energy than any previous government 
action. These provisions represent a huge win for the 
environment and therefore the country, and all U.S. energy 
consumers, and I urge you to do all you can to get this bill to 
the President's desk.
    Thank you.
    [The prepared statement of Vince Signorotti follows:]
  Prepared Statement of Vince Signorotti, Vice President, Real Estate 
    Assets and Community Relations, CalEnergy Operating Corporation
    Thank you, Mr. Chairman. My name is Vince Signorotti. I am the Vice 
President for Real Estate Assets and Community Relations for CalEnergy 
Operating Corporation, and I have lived in the Imperial County for 15 
years. CalEnergy is a subsidiary of MidAmerican Energy Holdings 
Company, an international energy company headquartered in Des Moines. 
With me today is Jonathan Weisgall, Vice President for Legislative and 
Regulatory Affairs for MidAmerican Energy.
    As you know, California faces an extraordinary challenge in seeking 
to increase electric generating capacity while meeting federal Clean 
Air Act compliance requirements. While the state has approved a few 
power development projects in the last three years, long-term supply 
and demand forecasts are still not favorable. For many years, 
Californians have lived on power imported from out-of-state, because we 
simply do not have enough in-state electric generating capacity to meet 
our demands during the warmer months. Indeed, this was one of the 
proximate causes of our recent power crisis.
    While we have long imported power from other states to meet demand, 
we are now seeing power plants operating across the border in Mexico 
that send electricity into Southern California and airborne pollution 
into the Imperial and Coachella Valleys. I do not have any short-term 
answers for the Clean Air Act compliance challenges that these 
emissions pose for our area, but I strongly believe that the best long-
term solution is to generate more clean energy from our indigenous 
resources here in California to serve the needs of the state.
    California--and Coachella Valley in particular--is fortunate to 
have some of the most abundant reserves of renewable energy in the 
world--geothermal and wind in particular. CalEnergy is one of the 
world's largest developers of renewable energy projects. We currently 
generate 340 megawatts of clean, reliable, renewable baseload 
geothermal electricity for California's energy consumers, and less than 
a month ago we received approval from the state for a 185-megawatt 
expansion of our facilities near Calipatria. This will represent the 
largest geothermal energy project anywhere in the United States. This 
power is produced without the significant air emissions typically seen 
from non-renewable resources. Compared to the natural gas power plants 
currently operating within sight of the U.S-Mexico International 
boundary, our existing geothermal plants offset hundreds of tons of 
nitrogen oxide, carbon monoxide and particulate matter annually.
    Geothermal power, as the word implies, is energy that comes from 
heat in the earth. Production wells at our Salton Sea facilities 
extract the geothermal brine from underground reservoirs. When that 
superheated brine reaches the surface, it is flashed into steam, which 
turns a turbine to create electricity. These wells range in depth from 
about one to two miles below the Earth's surface. After extraction of 
heat from the brine, the brine is reinjected back into the geothermal 
reservoir. A well-managed geothermal reservoir is thus a sustainable 
resource--virtually a closed-loop system--as we have seen at the Salton 
Sea, where there has been no measurable decrease in pressure in the 
geothermal reservoir since production was started in the early 1980s.
    About 2,600 megawatts of geothermal electricity are produced in the 
Western states, and over 5% of California's electricity comes from the 
state's 50 geothermal plants. Nevertheless, geothermal and other 
renewable energy developments continue to face serious challenges, such 
as: (1) physical limitations on the size and location of the resource; 
(2) high up-front capital costs; and (3) transmission constraints in 
delivering power from remote regions to load centers.
    While there is nothing policy makers can do about the physical 
limitations of renewable resources, Congress can and should take steps 
to assist us in overcoming the hurdles posed by high up-front capital 
costs and physical constraints. For example, we are extremely 
encouraged that the comprehensive energy bill conference report expands 
the Section 45 production tax credit for renewable electricity to cover 
geothermal energy. This provision represents the single greatest 
incentive to the expanded production of renewable electricity, 
including geothermal development in nearby Imperial Valley. In the 
meantime, uncertainty created by the failure to pass the energy bill 
has cast a shadow over renewable energy development. As you know, 
markets hate uncertainty, and within markets, investors hate 
uncertainty the most.
    The other major impediment to expanding the production and delivery 
of renewable electricity in the Imperial Valley and throughout 
California is the need to expand transmission infrastructure. A recent 
study by industry and university experts suggests that if fully 
developed, the Salton Sea field could produce over 2,300 megawatts of 
electricity. However, in order for that potential to be realized we 
must have greater transmission capability. No new significant 
transmission lines have been built in the area since the completion of 
a 230-KV transmission line in 1987, which interconnects the Imperial 
and Coachella Valleys and was built specifically for the purpose of 
transmitting electricity from renewable energy facilities. The 
construction of new transmission facilities and improvement of the 
existing transmission system to reduce congestion is imperative to the 
future development of clean renewable resources.
    The proposals in the comprehensive energy bill that would provide 
incentives for the construction of new electric transmission 
facilities, coordinate federal agency approvals of transmission line 
siting, and establish a federal backstop for resolving interstate 
transmission bottlenecks are all strong positive actions Congress 
should take.
    The strong tax, policy, and research and development measures in 
the energy bill will help ensure that future U.S. electricity supplies 
will be available from a diverse, domestic, renewable resource base. As 
a result, Coachella Valley, California and the rest of the country will 
see improved reliability; lower consumer costs; greater investment in 
renewable energy; improved air quality; enhanced U.S. energy security; 
and more jobs. Simply put, the comprehensive energy legislation before 
Congress does more to increase the domestic production of renewable 
energy than any previous government action. These provisions represent 
a huge win for the environment and therefore the country and all U.S. 
energy consumers, and I urge you to do all you can to get this bill to 
the President's desk.
    Jon and I would be pleased to answer any questions you might have.

    Mr. Barton. Thank you.
    The gentleman went a minute over, but since he was talking 
about my energy bill in a positive way I allowed him to do 
that.
    I would like our eight panelists to all come to the chairs 
at the front. Some of you went back out in the--if you 
testified if you'll come forward here, sit up here at the front 
so we can try to minimize the up and down.
    We are going to have at least one 5-minute round by each 
member of the subcommittee, and then if we need to we'll do a 
second 5-minute round, and we'll go longer. I mean, that's a 
minimum. I've got to reset the clock here.
    The Chair is going to recognize himself for the first 5 
minutes of questions. I'm going to make a general statement. 
The comprehensive energy bill, as several of you alluded to, 
has passed the House. The conference report has been completed, 
and it's passed the House, and it's awaiting debate in the 
Senate.
    The Senate has a requirement that if one member of the 
Senate wishes to not debate a bill they can force a vote on 
what's called cloture, which means you have to get 60 senators 
to vote to limit debate, otherwise you can have an indefinite 
filibuster.
    The Majority Leader, Mr. Frisk, brought the comprehensive 
energy bill up for a cloture vote right before the Christmas 
break, and he got 58 cloture votes and you need 60. The two 
California senators did not vote for cloture. So, for those of 
you that have supported the bill and its incentives for 
renewable energy and things like that, I'd encourage you to get 
with Senator Feinstein and Senator Boxer and encourage them to 
vote for cloture in the next month or so, so we can bring the 
bill up for a vote. It's already passed the House on a 
bipartisan basis.
    My first question is to Mr. Welton, who is the wind energy 
expert. You talked about the Renewable Portfolio Standard 
requirement in California that 20 percent of the renewable--20 
percent of the energy be generated by renewables. Does that 20 
percent include hydro?
    Mr. Welton. I believe it does.
    Mr. Barton. It would almost have to.
    Mr. Welton. Yes, I believe it includes both small and large 
hydro.
    Mr. Barton. Okay.
    In terms of wind energy, I noticed all the windmills when I 
drove up Interstate 10 yesterday to get here. Mr. Whitfield's 
district generates a lot of its electricity with coal, and they 
have a base, if you could break it down to kilowatt, which is 
what we pay at retail, their wholesale cost of generation for 
coal is about two and a half cents a kilowatt. In Texas, we use 
primarily natural gas, we use some wind power, we use some 
coal, our wholesale cost is about 4.5 cents a kilowatt. What, 
right now, is it costing, and I don't want proprietary 
information, but in general what is it costing to generate wind 
power here in the Coachella Valley, either at the megawatt 
level or at the kilowatt level, if you can break it down.
    Mr. Welton. Well, at the kilowatt level it depends on what 
type of contract you have. If you are selling to Southern 
California Edison they are paying us about six cents per 
kilowatt, but it's costing us to generate that probably maybe 
two to three cents per kilowatt.
    Mr. Barton. So, your generation costs have come down 
substantially.
    Mr. Welton. Right. We have--well, our company specifically 
has older generation turbines that have been installed since 
1988, and we still run at about 100 percent availability.
    Mr. Barton. What does the--if you know this, and if you 
don't I won't hold it against you--what does the average 
California resident pay per kilowatt for electricity right now?
    Mr. Welton. I think the Coachella Valley has some of the 
highest energy rates. They pay anywhere from 14 to 15 cents per 
kilowatt.
    Mr. Barton. And, is that typical for the whole State, or is 
that a little high?
    Mr. Welton. I think for the State it's a little less than 
that, I think it's between 11 and 12 cents.
    Mr. Barton. I would like the gentlelady representing the 
Sierra Club to come forward for a question, Ms. Taylor, I 
believe.
    Ms. Taylor. That's correct.
    Mr. Barton. You were the only one, I think, in your 
testimony that actually talked about some solutions to the 
PM<INF>10</INF> issue. Everybody else kind of laid the problem 
out, but I didn't hear anybody propose a solution. And, I think 
you did allude to some irrigation or some other----
    Ms. Taylor. That's correct.
    Mr. Barton. [continuing] so my assumption is that the 
obvious answer, which is just to put more water, doesn't work 
because water is pretty expensive, and if you irrigate after 
the water is gone that's expensive. So, if you were me, and 
Congresswoman Bono came to you and said, Congressman Barton, I 
want you to do X in the next energy bill, what is the most 
common sense solution that could be propounded?
    Ms. Taylor. Well, I think there are a variety of things 
that have been tried, and I don't propose to be an expert on 
this. If Ted Schade were here----
    Mr. Barton. Well, you the only one that even alluded to a 
solution.
    Ms. Taylor. Yes, that's right, that's right. However, Tom 
Kirk or Ted Schade could answer this better than I.
    Let me just say that one solution that has been proposed, 
which has been shown not to work at Owens Lake, is the idea of 
putting a salt crust down. You know, these saline lakes, when 
they evaporate, they are pulling the salt out of them, trying 
to keep it from getting hyper saline. And, they tried laying 
down salt in the Owens Valley and that did not work, so that's 
one that may be unlikely to work.
    What they have done at Owens Lake is shallow flooding, 
recycling the water, which they can only recycle so long before 
it becomes too, you know, hard. But, apparently, for their more 
recent areas that they are now having to treat as they go 
along, they've done 19 square miles now, they are going to have 
to go up to 30, apparently they are going to go to shallow 
flooding seems to be the most cost effective.
    Mr. Barton. There's no natural habitat that you can plant 
that will catch over time?
    Ms. Taylor. Yes, they did a plant native salt grass in the 
irrigated areas, but apparently the maintenance, as I 
understand it, the water costs are $5 or $6 million a year, 
projected to be that, just with their solutions. So, some water 
is involved, I'm afraid.
    Mr. Barton. Okay.
    Well, my time has expired, so I've got to yield.
    Ms. Taylor. I'm sorry.
    Mr. Barton. No, thank you.
    We'll recognize the gentleman from Kentucky, Mr. Whitfield, 
for 5 minutes.
    Mr. Whitfield. Mr. Chairman, thank you very much, and I 
would like my first question to go to Mr. Kirk with the Salton 
Sea Authority.
    Mr. Kirk, all the testimony that I read, or at least most 
of it, referenced the Owens Valley issue and the Mono Lake 
issue, which you talked about. It's my understanding that the 
problems there were caused by the city of Los Angeles over a 
number of years diverting water from those areas.
    And, my recollection was that someone mentioned you were 
diverting water from the Salton Sea to Imperial Valley, and 
then someone is diverting water from the Salton Sea to San 
Diego, is that correct?
    Mr. Kirk. It gets a little complicated. The diversion of 
water is from the Imperial Valley, Imperial Irrigation 
District, to San Diego. And, in fact, the Coachella Valley as 
well.
    The diversion, every gallon you send to San Diego from the 
Imperial Valley, a gallon less water flows into the Salton Sea.
    Mr. Whitfield. And, who makes the decision to divert that 
water?
    Mr. Kirk. The Imperial Irrigation District and San Diego 
County Water Authority, and a number of other water agencies in 
the State of California.
    Mr. Whitfield. And, is there a serious water shortage in 
this area? I assume there is.
    Mr. Kirk. It depends on who you ask. In San Diego, they are 
looking for a long-term reliable source of water, and San Diego 
imports almost all of its supply of water, and they look to the 
Imperial Valley who had a large water right to satisfy some of 
their need.
    Mr. Whitfield. So, recognizing that in the long term, it 
seems from the testimony everyone recognizes, that there is 
going to be a serious particulate matter problem down the road, 
as the sea recedes. Why do they continue to divert the water?
    Mr. Kirk. The water is valuable and, of course, again, San 
Diego and Los Angeles, have grown by importing water from other 
places.
    The problem with the Salton Sea, despite all of our 
testimony, we don't know how big of a problem there will be, 
nor do we know where it will occur. So, there's more 
uncertainty than there is anything else.
    Mr. Whitfield. But, it is a big revenue source.
    Mr. Kirk. It is.
    Mr. Whitfield. And, who benefits from that?
    Mr. Kirk. The Imperial Irrigation District is selling the 
water for about $250 an acre foot. They get the revenue, San 
Diego gets the water.
    Mr. Whitfield. And about, what is the total revenue per 
year?
    Mr. Kirk. $50 million a year on average.
    Mr. Whitfield. So, $50 million a year, okay.
    Now, we have not really touched on this, but I have read 
somewhere, or someone mentioned to me, there's something 
referred to as a new river canal, that I understand brings 
wastewater from Mexico into the Salton Sea. Is that correct?
    Mr. Kirk. There is a new river that runs from Mexico into 
the Salton Sea, correct.
    Mr. Whitfield. Oh, a new river.
    Mr. Kirk. Yes.
    Mr. Whitfield. And, is that polluted, is that industrial 
waste?
    Mr. Kirk. Yes, it is polluted, and EPA is working with the 
Republic of Mexico on a project to reduce waste falling into 
the Salton Sea. The total flows from Mexico are relatively 
small in comparison to the total flow getting into the Salton 
Sea.
    Mr. Whitfield. So, if you were looking down the road at 
this particulate matter issue from an environmental standpoint, 
versus this new river inflow, the particulate matter 
potentially would be a much more serious problem than the 
inflow of industrial waste from Mexico?
    Mr. Kirk. In my opinion, yes, and one of the factors here 
is it takes about 70 hours for the water to get from Mexico 
into the Salton Sea, it's a slow-moving stream, fairly long. 
And, by the time that water gets to the Salton Sea it's largely 
cleaned up. A lot of the wetlands deal with many of the 
pollutants that flow into the Salton Sea.
    Mr. Whitfield. And, is there a local government entity 
receiving revenue from Mexico for disposing of its wastewater 
here?
    Mr. Kirk. No.
    Mr. Whitfield. No.
    Mr. Kirk. No, and I smile, no, there is not. There are 
plans to clean that water up, and the water, once it's cleaned 
up, it's likely not to flow into the Salton Sea, that water 
will be reused in Mexico, probably to turn a profit for Mexican 
interests.
    Mr. Whitfield. Okay.
    Thank you. I have about 40 seconds left. Mr. Haber, I 
noticed this map that was in our literature, and I think this 
refers to air quality standards as it relates to particulate 
matter. And, it looks like about two thirds of the State of 
California is in non-attainment on particulate matter. Is 
that----
    Mr. Haber. That actually looks to me, at least from this 
distance, like it may be the ozone map, that California, it 
would be fair to say that California has probably one of the 
most, if not the most, challenging problems for both ozone and 
particulate matter in the country.
    Mr. Whitfield. This is the PM<INF>10</INF> map.
    Mr. Haber. Oh, yes.
    Mr. Whitfield. But, the ozone map would be similar to this?
    Mr. Haber. Yes, it would be.
    Mr. Whitfield. So, I can safely say that at least a third 
of California would be in non-attainment on both ozone and 
particulate matter?
    Mr. Haber. That's right.
    Mr. Whitfield. Okay.
    Thank you.
    Mr. Barton. Okay.
    The Chair would recognize the gentleman from Arizona, Mr. 
Shadegg, for 5 minutes.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I'd like to begin by questioning both, if I might, Mr. Kirk 
and Mr. Haber. I'll try to get both of your opinions on some of 
these questions.
    I guess I want to begin with an overall question. It sounds 
to me, Mr. Kirk, you think the question of how much of a 
PM<INF>10</INF> problem is going to arise out of the Salton Sea 
brine, or, I mean, a reduced flow of water into it, is an open 
question, I will tell you candidly, the person I'd like to be 
questioning is Mr. Schade, is that right?
    Mr. Kirk. Yes.
    Mr. Shadegg. He seems to think it's a bigger problem, and 
he seems to be quite concerned about it.
    Mr. Haber, where are you on that issue?
    Mr. Haber. We haven't done any quantification, but I think 
Mr. Kirk is correct that there are quite a number of unknowns 
about exactly how the lake will behave, what areas of the lake 
will emit more or less. So, there's, unfortunately, a great 
deal we don't know at this point.
    Mr. Shadegg. There's pretty much consensus among--I guess 
I'd like for you to clarify for me this--among the three of 
you, that it's a potential serious problem, PM<INF>10</INF> 
drying a lake.
    Mr. Kirk. Potentially extreme problem.
    Mr. Shadegg. Potentially extreme problem. I'm glad you said 
that, because Ms. Taylor, in her testimony, and I'm going to 
question her, I hope, a little bit in a minute, makes it fairly 
clear that it is a very serious problem.
    One of the issues that's mentioned with regard to Owens dry 
lake is that it is a salt--that salt is a factor there, but as 
I look at the figures, apparently, Mono Lake has some high salt 
content, like all lakes in the west, but not as salty as, for 
example, Owens Lake, and not as salty as the Salton Sea would 
be, is that correct?
    Mr. Kirk. No, Mono Lake is actually twice as salty as the 
Salton Sea, it's not as salty as Owens Lake once was. And, the 
real factor at Owens Lake, why it is off the charts, is the 
amount of area exposed. Owens Lake has receded significantly, 
in fact, it's not much of a lake at all.
    Mr. Shadegg. It's pretty much dried out totally.
    Mr. Kirk. Most years.
    Mr. Shadegg. But, the salt crust has not caused it not to 
be the biggest air pollution problem, PM<INF>10</INF> problem, 
in the country, is that right?
    Mr. Kirk. At Owens Lake? Owens Lake is the biggest air 
quality problem in the country, as far as PM<INF>10</INF> goes.
    Mr. Shadegg. And, the fact that the salt crust, that's 
talked about in some of the materials that have been submitted, 
has not precluded it from creating this tremendous 
PM<INF>10</INF> problem.
    Mr. Kirk. I understand the question now. You are correct, 
in fact, the type of salt at Owens Lake, and it interacts with 
groundwater and saline water flowing up, have caused some of 
the air quality problems at Owens Lake.
    Mr. Shadegg. As I look at Mr. Haber, your testimony, as I 
read this it looks like 9 square miles of exposure at Mono Lake 
has resulted in a doubling of the PM pollution--PM<INF>10</INF> 
pollution, at that lake?
    Mr. Haber. I'd have to review my numbers, but that sounds 
roughly correct, yes.
    Mr. Shadegg. Those are your numbers.
    And, it looks to me like Owens dry lake bed it's some 35 
square miles, is that correct, we are looking at 9 square miles 
versus 35 square miles?
    Mr. Haber. Yes.
    Mr. Shadegg. Thanks.
    How many square miles of potential exposure is there at the 
Salton Sea?
    Mr. Kirk. Eighty square miles.
    Mr. Shadegg. So, it could be dramatically larger?
    Mr. Kirk. Yes, which could produce a much bigger problem.
    Mr. Shadegg. Now, the question I have, two other questions 
I want to get into, how far, if you know, or if Mr. Schade's 
testimony or other testimony can tell us, how far can this PM 
travel? Does the Owens Lake pollution travel 100 miles, 200 
miles, 500 miles? Has anybody looked at those factors?
    Mr. Haber. I don't know the answer to that question, do 
you?
    Mr. Kirk. My understanding, and again, Ted Schade would be 
the best person to answer that, my understanding is that Owens 
Lake pollution travels as far south as the north part of San 
Bernardino--or the central part of San Bernardino County, it 
travels, in fact, for hundreds of miles.
    When you look at the dust storms of even the Salton Sea, 
you can imagine at Owens Lake there's dust traveling for 
literally tens, if not hundreds, of miles on major occurrences.
    Mr. Shadegg. Okay.
    And, with regard to the content of the dust, one of the 
issues I understand is that every time a lake of this type 
dries up part of the dust is toxic material that was in the 
lake at the time it was a lake, or settled on the lake at the 
time it was a lake, and it settles out and ends up a fair 
amount of the content of the dust includes toxic materials. Is 
that right?
    Mr. Haber. That was certainly the case with Owens Lake, and 
we don't know exactly what the components are at Salton Sea, 
but one would imagine that there would be some similarities.
    Mr. Shadegg. Has that issue been studied for the Salton Sea 
yet?
    Mr. Kirk. It has, in fact, we just completed a study with 
Egregian Research, who did a lot of work at Owens Lake, of all 
the near-shore sediments, and we have a good feeling for 
contaminate considerations in near-shore areas, the areas that 
will recede first. Those elements include selenium, cadmium and 
a couple of other inorganic elements.
    Mr. Shadegg. My time is about to expire, but let me ask one 
last question. I take it the terrain of both Mono Lake and 
Owens Lake is somewhat similar to the terrain at the Salton 
Sea, that is, fairly low, flat terrain?
    Mr. Kirk. It is. In fact, the Salton Sea is equivalent to a 
lake, a puddle, the width of this room, about a quarter of an 
inch deep. So, it's a broad massive lake that's relatively 
shallow.
    Mr. Shadegg. I have a series of other questions which will 
wait for the second round.
    Mr. Barton. Is it literally that shallow?
    Mr. Kirk. No, that's my Palm Desert chamber model of the 
Salton Sea, the sea is about 50 feet deep.
    Mr. Barton. Okay. I was thinking, that is a skinny lake. 
Even in Texas we wouldn't call that a lake.
    The gentleman from Indiana is recognized for 5 minutes.
    Mr. Buyer. I have a question, I'm not sure who to turn to. 
If I could, maybe Mr. Wilson and then maybe Mr. Kirk, if you 
could both come forward.
    I'm trying to be a very good listener and to understand 
this, with regard to a Federal nexus. There are times in 
Indiana, as the Great Plains finger across Iowa, Illinois, 
northern Indiana, whereby I have counties that are non-
attainment at certain times of the year because of agriculture. 
It could be by planting. It could be by harvest.
    Do you care about that here in Palm Springs?
    Mr. Wilson. Yes, and we have addressed that, we have had 
the agricultural industry, the Farm Bureau, at the table as we 
developed our PM<INF>10</INF> strategies in the Coachella 
Valley.
    Mr. Buyer. Let me ask it from this perspective. I'm looking 
at this one, this looks like a common sense view. As I'm 
listening to this, you have a water district that is located--
part of its location is the--Imperial Valley has a water 
district that cuts a deal to divert their water to San Diego to 
make money, and in turn that deal affects, actually, 
contributes to the demise of the Salton Sea, is that what I'm 
hearing? If I'm hearing that, this makes no sense----
    Ms. Bono. I wish----
    Mr. Buyer. I don't mean to be rude, but----
    Ms. Bono. [continuing] no, but will the gentleman yield?
    I wish I were a panelist, actually, on this, because--and 
I'm so glad the light bulb is going off and one congressman is 
realizing this could impact Phoenix now.
    This was done at the behest of the Secretary of the 
Interior and the Undersecretary for Water, Bennett Raley, so 
they were direct, the negotiation was very long, but it was 
not--really, the negotiations were long and drawn out, and in 
the end, under a lot of duress, I would say the QSA was cut.
    Mr. Buyer. But, Ms. Bono, you've got a water deal that 
we're talking about air quality issues here, and you can cut 
what you think is the best water deal in the world, but if you 
are asking for the Federal treasury to give money because there 
is a result, a very poor consequence of the deal, and the 
testimony here is about that air quality, how is that a good 
deal for the citizens of southern California?
    Ms. Bono. First of all, it's also important to remember 
there's a difference, when you include the Federal Government 
in this discussion it's not like Owens Lake, even though you 
didn't bring that up.
    The Salton Sea, although historically it's been there for 
millenniums, and with the Salton Sea geographics it's been 
there, but the Salton Sea was created by a Federal accident. 
So, the Federal--the Army Corps, I believe it was, allowed a 
dyke to be breached and continued to flood this area for many, 
many years. So, that's the Federal nexus of all of this.
    Mr. Buyer. Okay.
    Ms. Bono. But, the Colorado River, the law is something you 
would probably never really have to deal with much in Indiana, 
but John Shadegg knows about it.
    Mr. Buyer. Ms. Bono, Mr. Kirk, in your testimony, you wrote 
who will be responsible? That really stuck with me when I read 
your testimony last night.
    Mr. Kirk. You noted it was a question, and not with a----
    Mr. Buyer. That's right, I read further, because my mind, 
since I read that last night, has been going who is going to be 
responsible, who is going to be responsible, and then when you 
start thinking about this water deal that was cut out there, do 
people here really think that was a good deal for you?
    Mr. Kirk. In defense of, we do have representatives of one 
of the water districts here involved, but not the Imperial 
Irrigation District in the room. In defense, the water deal was 
more complicated than farmers selling water to make money, it 
was, in part, part of the broader Basin package to get 
California to reduce its over-reliance on the Colorado River.
    And, some would suggest that if the water deal did not 
occur peaceably, that the Federal Government would have stepped 
in and made it occur and thereby reduce inflows into the Salton 
Sea, and we'd be left with some of these same questions.
    But, you are right, I did not definitively answer who is 
responsible. I think it will be a mix. The water districts, in 
their defense, have ponied up $133 million to solve all sorts 
of environmental mitigation problems, and, in fact, a little 
bit more than that.
    The State of California is resolved to help with 
mitigation, and the role of the Federal Government is a bit of 
a question mark.
    Mr. Buyer. Mr. Haber, did the EPA sign off on this water 
deal, or did they have a voice in the process?
    Mr. Haber. My understanding is that EPA was involved in an 
advisory role, but we didn't have a direct role.
    Mr. Buyer. In an advisory role, and what was the advice of 
EPA on the deal?
    Mr. Haber. I'm afraid you just exceeded my knowledge on 
that.
    Mr. Buyer. Pardon?
    Mr. Haber. I'm afraid you've just exceeded my knowledge 
about this. I can get back to you on that if it would be 
useful.
    Mr. Shadegg. Would you please let--without taking the 
gentleman's time, I'd like to reaffirm what was said before, 
just to make the point that you have to understand the entire 
law of the river, and that California is currently overdrawing 
its allotment by a substantial amount. The cities on the west 
coast desperately need water, they are currently taking a lot 
of that from the Colorado. They are taking more than they are 
allowed to take, and that, indeed, was a part of what happened. 
Indeed, the Secretary of Interior threatened the Imperial 
Irrigation District and said if you don't do this then 
California will lose water that it is critically relying upon 
right now. So, it's incredibly complex.
    Mr. Buyer. I know you have your interest in a neighboring 
State, but if we are doing an air quality hearing, and the 
Federal Government helps a State negotiate a deal in which it 
can have very poor consequences on air quality, I'm puzzled 
that EPA, which is only an advisory role, indeed, did EPA even 
issue an advisory opinion?
    Mr. Barton. The gentleman's time is expired.
    Isn't Congress fun? Isn't it just great? You know, we all--
and we are all Republicans here.
    Mr. Shadegg. Mr. Chairman, may I request that the gentleman 
be given an extra 30 seconds?
    Mr. Barton. The clock had expired when you took his time.
    Mr. Buyer. Can EPA just answer whether or not they issued 
an advisory opinion, Mr. Chairman?
    Mr. Barton. Sure. Would the gentleman from EPA attempt to 
answer that question?
    Mr. Biland. May I answer for my colleague?
    Mr. Barton. You may. We need you to identify yourself for 
the record, though, sir.
    Mr. Biland. My name is Larry Biland. I'm th Project Manager 
for the Owens Valley EPA, and I was also asked, I was brought 
in during the Salton Sea, during the water transfer, for my 
expertise dealing with that.
    Mr. Barton. You are an employee of the Environmental 
Protection Agency?
    Mr. Biland. Yes, I am.
    Mr. Barton. Okay.
    Mr. Biland. Yes, we did provide comments. In fact, I had 
made a list of--a detailed list of what would be required, 
starting with an air monitoring program, and going down to 
performing some studies to determine what the soil 
characteristics were and what would occur on an exposed 
shoreline. We did provide those comments, but they were not 
incorporated into the final agreement.
    Mr. Buyer. Thank you, Mr. Chairman.
    Mr. Barton. The gentlelady from California is recognized 
for 5 minutes.
    Ms. Bono. Thank you, Mr. Chairman.
    So far, I would call this hearing a wonderful success, 
because people are starting to get it. My colleague over here 
is understanding the frustrations. My colleague from Arizona is 
understanding that these issues, the old adage of waters--
whiskey is for drinking and water is for fighting, we often 
times are on the opposite side of this.
    However, he, too, now is realizing that the Salton Sea can 
have an adverse effect on his district. So, if we are not 
proactive here, and this is my task as a Member of Congress, as 
we all know up here our body of government, as well as city 
councils, and counties, we react to a crisis. And, we are 
trying so desperately here to say we need to do something 
before it's too late.
    A year ago, 2 years ago, we had this very same hearing on 
another topic, and that was fires in the bark beetle infested 
area, and we've all seen catastrophic fires that California has 
had and, indeed, we just lost 14 lives because of the 
subsequent mud slides.
    So, I'm trying to get Congress to be proactive here, to say 
we need to step in, and this is not a question, it's just a 
soap box, but it's feeling really good, we need to step in and 
stop this disaster before it gets worse.
    I stated to my colleague from Arizona that the law of the 
river is something that, yes, California has been in overdraft, 
and I'm hoping he's going to hear this, but if, in fact, the 
Salton Sea becomes a health hazard then it would be my task to 
try to redefine what beneficial use of the Colorado River water 
is, and that would be a huge fight in Congress, but if, in 
fact, people are suffering cardio respiratory illnesses because 
of the Salton Sea I would have to see if we could redefine 
beneficial use of water.
    John Shadegg is one of the most brilliant lawyers in 
Congress, so I know he'll be helping me mitigating what we can 
do with the Salton Sea.
    My question, though, my first one, is to the EPA. I don't 
know if Mr. Haber wants to answer or who, but why aren't you 
guys screaming for this? You guys really have been asleep at 
the switch. I do have the testimony from June 2002, and you 
gave me the same things you are giving me now. And, why are you 
not--why isn't somebody standing up and screaming and making 
sure that you are a part of it, because the water is a very, 
very small issue compared to this air quality issue.
    Mr. Haber. This is a question of sort of intervening 
Federal agency authority, so I would say it's complex, and 
given that air quality planning is mostly carried out at the 
local level, we want to be at the table, but we can't drive the 
process.
    Ms. Bono. Do you need a congressional mandate? I think you 
are going to be getting it. In 1998, we did the Salton Sea 
Restoration Act, which was largely ignored by the Bureau of 
Reclamation, and I feel that EPA is the same way.
    The Secretary of the Interior and the Federal bureaucracies 
want to just hope they can punt this problem next year, and 
next year, and next year. We've bought 15 years of time with 
this QSA, that we've saved the sea, in effect, and the regional 
issues, but what do I need to do to make you guys be an active 
partner here, instead of--even answers that you didn't even 
know what your role was so far with this very significant 
policy.
    Mr. Haber. Well, I guess I would reiterate that we want to 
be involved, and people always say at the local level is the 
best place to do, and I think that's EPA's general position, is 
South Coast District, Coachella Valley, Association of 
Governments, Salton Sea Authority, needs to be in the lead. We 
want to be there with them, but to have us in front I think 
people would be coming back and saying why is the Federal 
Government not----
    Mr. Barton. Would the gentlelady yield?
    Ms. Bono. Yes, Mr. Chairman.
    Mr. Barton. There are other issues around the Nation that 
involve both air and water quality issues, and in the instance 
of the MTBE issue, it's generally been the water people that 
prevailed. Is there a protocol in California where you work 
with the air and water quality executives for the State of 
California and you make a determination which Federal and State 
agency is going to dominate, because----
    Mr. Haber. I'm not aware of such a protocol. My suspicion 
is the answer is no to that.
    Mr. Barton. In Texas, the air quality issue tends to 
dominate the water quality issue, at least on ozone non-
attainment, which you referred to.
    Mr. Haber. To date my understanding, this is probably the 
most acute situation where there appears to be a direct 
conflict between water needs and air quality impacts.
    Mr. Barton. But, we do have, in the pending energy bill, 
which again has passed the House, is waiting to be debated in 
the Senate, Congressman Shadegg has been very instrumental in 
some legislation that would formalize and designate lead 
agencies on some of these water quality issues, and these hydro 
licensing and relicensing issues. So, perhaps, we could take 
that as a model and expand it to air and water issues, so that 
we do get some sort of a Federal, at least Federal guidance, if 
not a--I'm not a real Federal mandate guy, but I do think if 
you've got competing interests we, perhaps, could provide some 
guidance.
    I took about 2 minutes of the gentlelady's time, I'd ask 
unanimous consent that Congresswoman Bono have an additional 2 
minutes in this round. Hearing no objection.
    Ms. Bono. Thank you, Mr. Chairman.
    When you are pointing to the local agencies, I'd like to 
ask Supervisor Wilson to comment on his role. But, if you could 
stay in the firing line that would be good.
    Mr. Haber. Thank you very much.
    Mr. Wilson. My role, specifically, regarding Salton Sea and 
air quality, is that it?
    Ms. Bono. Yes, he's saying that it's really your role to be 
taking the lead with a Federal agreement. The QSA was a 
federally drive project, and he's saying it was your role to 
advise, when I believe it's EPA's role to advise. And, I'm just 
leading the witness, I think.
    Mr. Wilson. In my opinion, EPA needs a stronger role, 
because South Coast represents the northern part of the 
Coachella Valley down to the Imperial County line. There's a 
different air quality district, the Imperial Water District, 
that regulates Imperial. We need an overview, a branch from 
EPA, to get us coordinated on this effort.
    Mr. Haber. And, might I say, I may have misunderstood your 
question about roles. What I was thinking of particularly is 
the district's role to prevent air quality problems and remedy 
those that exist. You are talking about the QSA and our role is 
that the Department of Interior, which I believe is the lead 
agency and has driven it, and as Mr. Biland said, in the 
consultation process we provide comments, and that is under 
NEPA, that is what our role is limited to.
    Ms. Bono. But you say your comments were ignored.
    Mr. Haber. At that point, we had the choice of raising it 
to the Department of Environmental--to CEQ or not, and it's 
relatively rare that the agency has done that. You could 
certainly question that choice.
    Ms. Bono. Okay.
    Mr. Wilson. And, if I could just add to that. EPA has been 
now involved with the Owens Lake disaster. We want to prevent 
that from happening by being proactive. We need EPA's help, we 
need transfer of knowledge that they've gained in the Owens 
Valley, so that we can do some proactive studies beforehand, 
before we get the PM<INF>10</INF> out here into the people's 
lungs.
    Ms. Bono. Thank you.
    Thank you, Mr. Chairman.
    Mr. Barton. The Chair would recognize himself for 5 minutes 
in the second round.
    I want to ask, I'm a registered professional engineer, and 
I feel inclined to ask a few technical questions. As I 
understand it, the ambient air quality standard for California 
is stricter than the air quality standard at the Federal level. 
For PM<INF>10</INF>, the Federal standard, the primary 
standard, is 150 micrograms per cubic meter on a 24-hour basis, 
and the annual arithmetic mean is 50 micrograms per cubic 
meter. The State of California has a 24-hour standard for 
PM<INF>10</INF> of 50 micrograms, which is a third the size of 
the Federal standard, and its annual standard is 20 micrograms, 
which is only 40 percent of the Federal standard.
    We also have the statistics for the Palm Springs Fire 
Station, monitoring station, which showed for 2001, 2000 and 
2002, the measurements, and they, on two of the years, seemed 
to be in compliance or almost in compliance, except for 1 day 
with the Federal standard, but they are nowhere close to the 
State standard.
    So, my question, I would guess to the gentleman from the 
EPA, we hate to keep beating on you, but what happens if we get 
within the Federal standard but are nowhere close to the State 
standard, who pays for that? If we can help get them under the 
Federal standard I'm all for that, but I'm not inclined to 
spend a lot of Federal dollars to get them into compliance with 
the State standard that's 60 percent tighter than the national 
standard.
    Mr. Haber. Perhaps you are fortunate there, we are not 
responsible for enforcing the State standard. It's not part of 
the State implementation plan, except to the extent that it 
assists the State in getting to the Federal standard, it's not 
something that we deal directly with.
    The other thing I would note, just for the record, is that 
the Federal standard has an attainment deadline associated with 
it, whereas I understand the State standard does not have a 
particular deadline associated with it.
    Mr. Barton. Okay.
    Mr. Crites, would you want to take a crack at that? You are 
the representative of the local association, and if we can help 
get you all under the Federal standard are you willing to get 
your State legislatures to tote the note to get you within 
compliance with the State standard?
    Mr. Crites. We are on a 2006 deadline for compliance, I 
believe, with the EPA standards, and those are the ones that we 
are headed for right now. We are not in compliance so far. We 
believe, obviously, that the kinds of things that we are doing 
will take us to that compliance, and the issue that I brought 
then is, is that all might very well be for naught at the 
Federal level of standards should some of the issues that we've 
talked about today relative to the Salton Sea become true.
    Mr. Barton. Well, let me ask the question a different way. 
Is there anybody, any panelist, that thinks if we meet the 
Federal standard for PM<INF>10</INF> that automatically gets 
you enough to get down to the State standard?
    Mr. Wilson. Mr. Chairman, if I could call on Doctor Julia 
Lester from the technical staff of AQMD, maybe she could answer 
that question.
    Mr. Barton. Sure. If you'll just identify yourself for the 
record.
    Ms. Lester. I'm Doctor Julia Lester, I'm the Program 
Supervisor for Particulate Matter at the South Coast Air 
Quality Management District.
    The work that you are doing here to reduce emissions to 
meet the Federal standard do give us progress toward the State 
standard. The State requirement is, although there's no set 
attainment date, that we continue to show progress, and that we 
are doing all feasible measures.
    The State program that we've committed to in our air 
quality plans do impose all feasible measures on dust control 
in the Coachella Valley.
    Mr. Barton. So, unlike the Federal standard, if you are in 
non-compliance for any Federal standard and stay in non-
compliance highway funds can be withheld, huge fines per day 
can be enforced, at the State level if you are in non-
compliance with the State standard, as long as a showing is 
made that you are trying to comply there's not an automatic 
penalty associated with being in non-compliance of the State 
standard.
    Ms. Lester. That's correct, to the extent that the health 
and safety code of the State of California is very clear as to 
what hurdles you have to demonstrate to show that you are 
actually imposing all feasible measures.
    Mr. Barton. So, your State standard, for at least 
PM<INF>10</INF>, is really not a hard standard. It's this is 
what we think it should be, we want to try to get there, but if 
you can't get there, as long as you are trying to get there, 
it's okay.
    Ms. Lester. That would be a correct term.
    Mr. Barton. Okay, thank you.
    I didn't start my clock right at 5 minutes, so I know I've 
already exceeded my time, so I'm going to recognize Mr. 
Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Doctor Lester, may I follow up on some questions that the 
chairman was asking to make sure I understand this? Basically, 
you are saying that as long as you can convince the State that 
you are operating in good faith to meet their effort then there 
won't be any penalties, is that correct?
    Ms. Lester. That's correct. The State standards are 
significantly more stringent than the Federal standards, and I 
think that is my understanding of the legislation, that's why 
there is the balance.
    Mr. Whitfield. And, are you aware of any areas in 
California where they have not met that good faith standard and 
that there were penalties associated with not meeting the 
standard?
    Ms. Lester. Not to my knowledge.
    Mr. Whitfield. Okay, thank you.
    Ms. Taylor, you made one comment, and this is a little bit 
off of what we are talking about, but you made a comment, I 
thought, that the dirtiest national park in the country was 
here in the Coachella Valley, is that correct?
    Ms. Taylor. I believe they trade places. I believe the 
Superintendent of Joshua Tree is here, Curt Sauer, he could, 
perhaps, answer that, but it's always among the top three 
dirtiest, and sometimes the dirtiest, in the last few years.
    Mr. Whitfield. And, how is that measurement--how do they--
--
    Mr. Barton. Yes, define dirty, is that BMT and dust? Is 
that, why?
    Ms. Taylor. Ozone.
    Mr. Whitfield. Oh, ozone standards.
    So, this national forest here is one of the three dirtiest 
in the Nation from an ozone standard.
    Ms. Taylor. National park, yes.
    Mr. Whitfield. Okay, and that's the case right now?
    Ms. Taylor. Yes.
    Mr. Whitfield. Yes.
    Mr. Whitfield. Okay, thank you.
    Ms. Taylor. Thank you.
    Mr. Whitfield. Mr. Haber, it's my understanding that 1.5 
percent of electricity needs in California are generated by 
wind, is that correct?
    Mr. Haber. I actually don't know the answer to that, 
perhaps, the gentleman----
    Mr. Whitfield. Is that right, Mr. Welton?
    Mr. Welton. That's correct.
    Mr. Whitfield. All right, and 5 percent by geothermal, is 
that correct?
    Mr. Welton. Yes.
    Mr. Whitfield. Okay.
    And, do we know how much electricity is generated in 
California by coal-fired plants that export electricity into 
California?
    Mr. Welton. I believe it's probably very low.
    Mr. Haber. There are about 4 to 6 power plants in nearby 
States that export to California that are coal fired.
    Mr. Whitfield. All right. Do any of you have a breakdown of 
the total electricity generated for California and what the 
source of that electricity is? I mean, you have 1.5 percent 
wind, 5 percent hydro.
    Mr. Welton. Yes, I have rough numbers, but----
    Mr. Whitfield. Okay, well then I'll follow up on that 
later.
    May I ask you just a couple questions, Mr. Welton?
    Mr. Welton. Please.
    Mr. Whitfield. On the wind power, you talked about this 
production tax credit, which is tied up in the chairman's 
energy bill, which we hope will be passed soon, but all of us 
continue to look for productive, efficient means to produce 
power, and renewable is always an excellent way to do that. 
But, this 1.5 percent that you all are producing for 
electricity, how many windmills are there in this area?
    Mr. Welton. In this area alone?
    Mr. Whitfield. Yes.
    Mr. Welton. Oh, there's 600 megawatts, which translates to 
about 3,000 wind turbines.
    Mr. Whitfield. So, you've got 3,000 wind turbines. And, my 
understanding that the next generation right now these are 
towers of what, 120 feet, or 150 feet?
    Mr. Welton. The tower, the turbine goes to about 300 feet 
to 400 feet, that being the blade at the 12 position.
    Mr. Whitfield. Okay, because I understand the new 
generation would be even taller.
    Mr. Welton. In California, I think there's a limit on the 
size that you can put in.
    Mr. Whitfield. Okay.
    How often do you hear complaints on visual pollution 
relating to windmills?
    Mr. Welton. Frequently, and also infrequently. One of the 
goals of the San Gorgonio Pass, that's the region down here, is 
we are trying to remove older generation turbines, so for every 
20 of the older generations you can put in one new generation 
turbine, and that reduces the amount of clutter.
    Mr. Whitfield. And, what would you say the total capital 
cost of these 3,000 windmills are, that are in this area?
    Mr. Welton. It's difficult to say. A lot of those, as I 
said, are older generation turbines that were installed back in 
`88.
    Mr. Whitfield. Do you have a ballpark figure?
    Mr. Welton. Well, I can give you an idea. A new turbine, 
say it's a 1 megawatt wind turbine, and you are putting in 50 
megawatts of that, the cost is about $750,000 per machine to, 
you know, turn the key. If you put in smaller numbers, of 
course, the cost goes up.
    Mr. Whitfield. Okay.
    Okay, thank you very much, Mr. Chairman.
    Mr. Barton. We would now recognize the brilliant lawyer 
from Arizona for 5 minutes of questions.
    Mr. Shadegg. Mr. Kirk and Mr. Haber, please.
    I want to just conclude a couple of quick points. We ended 
by discussion of how the terrain around both Owens Lake and 
Mono Lake is relatively flat and spread out, and that's similar 
to what is the situation at the Salton Sea.
    Mr. Kirk. Yes. One major difference is the mountains in the 
Owens Valley are closer to the lake. There's a steeper gradient 
outside of the lake bed.
    Mr. Shadegg. And, both contribute to wind conditions, or 
would that contribute to wind conditions?
    Mr. Kirk. The venturi effect of these narrow mountain 
passes certainly contributes to wind conditions in both places.
    Mr. Shadegg. On mitigation, I actually read that there was 
a discussion, which maybe in Mr. Schade's testimony and also 
referenced in Ms. Taylor's testimony, that one option is 
flooding, which is putting water over it, shallow flooding, but 
in order to do that you'd have to have the water, correct?
    Mr. Kirk. Correct.
    Mr. Shadegg. And, on a flat surface it would take less 
water than if it was a steep surface?
    Mr. Kirk. No, actually, it's a function of a surface area 
entirely.
    Mr. Shadegg. The second option is plants and watering those 
plants.
    Mr. Kirk. Right.
    Mr. Shadegg. Again, requiring water, and the last is 
gravel?
    Mr. Kirk. Yes.
    Mr. Shadegg. Covering it with gravel.
    I take it you agree with Ms. Taylor that it's better to 
deal with the problem before rather than after?
    Mr. Kirk. Indeed.
    Mr. Shadegg. Can either of you tell me the surface of the 
Salton Sea, how many--or its width by length?
    Mr. Kirk. Fifteen miles by 9 miles, 8 or 9 miles, I'm 
sorry, 350 square miles, 35 miles long, by about 10 miles wide.
    Mr. Shadegg. Thirty-five by 10, 350.
    Ms. Taylor, if you could come forward.
    First of all, I do live in Phoenix, Arizona, but I do like 
to vacation on the California Coast. We happen to like the 
Orange County Coast, and so we come here often. We drive down 
the hill into Coachella Valley, and it's a pretty spot, it's 
awfully green and verdant compared to what you've been through, 
but I have seen the wall of pollution that you talk about. 
Indeed, we come down that hill and we can just see it coming 
through the pass at Banning and Beaumont.
    And, my Dad grew up in southern California and talked to me 
about the Banning and Beaumont Pass, and flying it when he was 
a kid.
    Your testimony indicates that the problem in this area, all 
the problems in this area, would pale by comparison to this 
potential PM<INF>10</INF> problem we have arising out of the 
Salton Sea, is that right?
    Ms. Taylor. That's correct.
    Mr. Shadegg. And, that it has the potential to be another 
Owens Lake disaster?
    Ms. Taylor. Yes.
    Mr. Shadegg. And, that the Salton Sea could be a huge 
source of PM<INF>10</INF> pollutants, right?
    Ms. Taylor. Yes, and finer.
    Mr. Shadegg. You would also agree that these 
PM<INF>10</INF> pollutants can travel hundreds of miles?
    Ms. Taylor. I don't know, but I think that these fellows 
that are speaking are aware of this.
    Mr. Shadegg. You mentioned mitigation being salt being put 
on top, a salt crust, and that didn't work.
    Ms. Taylor. Apparently not at the Owens Lake.
    Mr. Shadegg. And, are you aware of the other attempts at 
mitigation, plants and flooding, both requiring water?
    Ms. Taylor. The only two I'm aware of that were successful 
were the plants and the shallow flooding.
    Mr. Shadegg. Well, I think it's a serious problem and I 
think we have to deal with it. It's an interesting 
interrelation between water and air.
    I do want to digress and ask one other topic. Are you--are 
the positions you have taken today, are they the positions of 
yourself as a member of the Sierra Club, or the Sierra Club 
itself?
    Ms. Taylor. These are the positions of the local group of 
the Sierra Club. I believe they are well within national Sierra 
Club policy.
    Mr. Shadegg. That's where I wanted to ask a couple of 
questions, switch topics a little bit, but a parallel that I 
happen to see. Are you aware that the Sierra Club nationally 
has adopted a resolution calling for the draining of Lake 
Powell?
    Ms. Taylor. Yes, I am.
    Mr. Shadegg. Do you know if the Sierra Club has studied the 
particular problem that could result from the Salton Sea?
    Ms. Taylor. No, I do not know, but I don't believe it's a 
saline area.
    Mr. Shadegg. So, you don't the Salton Sea has been studied 
by the Sierra Club?
    Ms. Taylor. No, let me put it this way, I don't think that 
they are the same conditions as Lake Powell, because it hasn't 
been there long enough.
    Mr. Shadegg. Well, actually, in the testimony of Mr. 
Schade, he says the fact that you dry up a lake more recently 
means you get more pollution.
    Ms. Taylor. But, I think he's talking about a very old 
lake, and the Salton Sea has been flooded over millennia and so 
forth. Lake Powell is artificial, and it's recent, the last 50 
years or so.
    Mr. Shadegg. Actually, both the Salton Sea and Lake Powell 
could be arguably artificial, as Ms. Bono pointed out here that 
the Salton Sea was an artificial creation by accident, the Lake 
Powell was created by intent.
    Ms. Taylor. If I could just, because it is an important 
issue, the Salton Sea over a millennia flooded that way. The 
last flooding was an accident.
    Mr. Shadegg. Right, both are a result of Federal----
    Ms. Taylor. But, it flooded and dried out, over a millennia 
it is very salty.
    Mr. Shadegg. Given that salt is a factor here, salt is a 
factor in any given lake of this type in the western United 
States, you've already indicated that the Sierra Club has not 
studied, to your knowledge, the Salton Sea and the impact on 
air pollution, is that right? There's no formal study that you 
know of.
    Ms. Taylor. That the Sierra Club has done, no.
    Mr. Shadegg. And, do you know of a study done by the Sierra 
Club on the potential for air pollution if Lake Powell is 
named?
    Ms. Taylor. No, I do not know of any such study.
    Mr. Shadegg. Okay.
    What I want to ask as a concluding question is, if, in 
fact, it's shown that draining Lake Powell could result in the 
same kind of PM<INF>10</INF> problem for many portions of the 
country that you are going to have here out of the Salton Sea, 
and if, in fact, it's shown that the water stored behind Lake 
Powell from the Upper Basin States could, in fact, be used to 
help make sure that the Salton Sea doesn't dry up, would you 
either personally, or do you think some chapters of the Sierra 
Club, would consider, based on that evidence, dissenting from 
the national Sierra Club's position calling for the draining of 
Lake Powell?
    Ms. Taylor. Now you are talking Sierra Club politics, which 
are about as complicated as national, and I would just say I 
personally would advocate that the Sierra Club look at all 
parts of an issue, such as that.
    Mr. Shadegg. My question was, would you consider 
dissenting?
    Ms. Taylor. As long as I represent Sierra Club, I cannot 
dissent from a national position.
    Ms. Bono. Thank you. The chairman has allowed me to Chair 
the hearing suddenly. I hope I don't look a lot older now, but 
Congressman Buyer, your 5 minutes.
    Mr. Buyer. I don't know why I'm still hung up on your 
question from last night, who is responsible, because I keep 
taking this thing to different plateaus.
    But, who is responsible, California is a fascinating State 
as we take care of interests all across the country, California 
is a State where you have your moratorium to offshore drilling, 
you won't allow any building of nuclear facilities, you consume 
nine times the power that you built for yourself, you divest 
your own utilities, you don't own--you only own the wires, you 
won't build transmission lines. You take power from the 
northwest, hydro power. You take coal from southern Indiana, 
and Kentucky, and West Virginia. You have peaking plants of 
natural gas. Natural gas prices are very high at the moment. 
Who is responsible?
    The first thing about responsibility is about yourself, so 
when we were trying to take care of interests around the 
country, I look at California and say, California, what have 
you done for yourself? And then I look at this one that's going 
on, I'm glad you brought us out here, then I look at this one 
and go, okay, if that's how California is acting as a State, I 
guess, look, they are just doing the very same thing with 
regard as a city, what's San Diego doing for itself? And then, 
they cut this deal to take water, everybody is looking for 
something for the cheap, trying to do it on the cheap, so 
rather than drawing it from the sea, oh, that would be too 
expensive, so let's cut our deal here, and it has an impact 
that will have a health consequence.
    Here we are talking about air quality. We are not even--
there's been no discussion here today about the health 
consequences. The reason I remembered the Salton Sea, when 
Sonny Bono first came to Congress his office was close to me, 
and he talked about the Salton Sea, and I hadn't even met you 
at that time, Mary, and I don't want to get too personal here, 
but I hadn't met you at the time, he talked about his wife 
having asthma.
    Mary, I don't know how you--somebody here, is this a very 
high asthma place? Does anybody know? Can anybody tell me? 
Nobody knows? I would think--please.
    Mr. Wilson. Asthma is up almost everywhere in the U.S., and 
this area is no exception. A lot of people moved here because 
of air quality, and they have found out not all of it certainly 
is particulate matter, and one of the issues is we brought our 
landscapes from other parts of the U.S., and so we planted 
olives and oleanders and everything else, and so we gets lots 
of allergens from plants. We get lots of it from the air.
    Mr. Buyer. If I may, just for 1 second, sir. Do you know, 
are there any--I guess I can go back to the Health Subcommittee 
on this one, Mr. Chairman, but are there any that you aware, 
with regard to how the State is broken out, where this area is 
very high in asthmatic and pulmonary disease?
    Mr. Wilson. Yes, there is even such a thing called Desert 
Lung that comes from, not just here, but it's also found in the 
San Joaquin Valley and other places where you get a lot of 
airborne particulates, and if I could have 20 seconds, sir, to 
make one comment and that is you are square on target correct, 
the Salton Sea was, in essence, being ignored in the water 
deal, and lots of other interests were up at the top, and air 
quality was getting rolled, and thank you again, Ms. Bono, for 
being there, and thank you, sir, Mr. Buyer, for paying 
attention to the issue, because this was one of the 
consequences that nobody was going to talk about, because we 
were busy doing a Federal/state deal on water.
    Mr. Buyer. It's pronounced Buyer, it's French, but I don't 
mind you Americanizing it.
    Mr. Wilson. All right, Mr. Buyer, sorry, sir.
    Mr. Barton. He's trying to be nice to you.
    Mr. Buyer. No, he's very--he's very good, I'm just trying 
to--I don't understand, you know, your testimony was very good, 
and we also had somebody from the Home Builders, you want to 
talk about a desire consequence, let the word get out that this 
is not a place to come, this is not a place to retire, because 
of the health consequences of southern California not taking 
care of itself. I don't think that's a very good thing, and we 
have to look at this from a Federal perspective on how we take 
our available resources and move them around the country.
    And, you know, it's human nature, you'll go where people 
are working together to take care of a particular problem. The 
people that are unwilling to take care of something themselves, 
you just say, well, we'll just wait until they get their act 
together. It's a human consequence, it's reality.
    You know, wow, California, you have a lot of challenges 
here, Ms. Bono. I'll yield back. Thank you for your testimony.
    Ms. Bono. Thank you. I will yield myself an additional 5 
minutes, but I'd like to remind Mr. Buyer, though, before you 
go picking on California, it is the fifth largest economy in 
the world, and I would think that our economy helps drive the 
rest of the country, and I believe our economy is probably 
bigger than France's.
    Mr. Buyer. I'm not defending France.
    Ms. Bono. That's okay, go ahead and try.
    Mr. Buyer. No, my family came from Alsace Lorraine, and it 
was pre-1870, and at that time we were part of Germany.
    Ms. Bono. All right, but I would just like to sort of along 
the lines of what Steve was saying, if, Tom Kirk, you could 
come up and discuss briefly in my 5 minutes what we are trying 
to do, and where we are trying to go, and along with Supervisor 
Wilson we are trying to--oh, I was trying to ignore my own 
time, no, I'm just kidding. Now I've entirely messed it up. 
Okay, go. We are trying to come up with a plan that's much 
larger than solely a body of water, and I think prior to today 
my colleagues thought of me and the Salton Sea, and fish and 
birds, and that I was sort of only caring about these things, 
but really there are opportunities here to do sort of 
beneficial or mutual uses, and come up with some very creative 
solutions, so could you please comment on where we go from 
here, and you can also comment on who should be the lead agency 
in the restoration of the sea.
    Mr. Kirk. I'd be happy to do all of the above, and I was 
taken by your comments. And, one of the things that came from 
one of our recent board meetings with Supervisor Wilson, one of 
the board members said, ``God helps those who help 
themselves,'' and the Salton Sea Authority in the past year has 
taken that motto apart and said, well, the Federal Government 
isn't going to be there, we hope they will be, and if the State 
government, we are not sure exactly where they are going to be, 
let's strive to make a restoration plan and work with 
Congresswoman Bono on that restoration plan.
    And, there are three standard mitigation measures at Owens 
Valley. We have opportunities at the Salton Sea that Owens 
Valley doesn't have. Our restoration of the Salton Sea is not 
about letting the sea drop up. We will still have 800,000, 
900,000, maybe a million acre feet of water flowing into the 
Salton Sea, and how we manage that water will go a long way to 
protecting fish and wildlife resources, providing wonderful 
recreational opportunities, and doing great things for air 
quality. We haven't talked about that, but salt management is a 
part of a restoration plan. And, the concept that we are 
working with Congresswoman Mary Bono on is doing as much with 
the water resource as possible, taking advantage of wetlands 
creation, ala Duncan Hunter's concept from the Imperial Valley, 
cleaning up water as it flows into the Salton Sea, creating a 
smaller but healthier Salton Sea, and using salt management to 
take salt out of the system. We have--salt gets into the Salton 
Sea, the terminal body of water, now we are going to create a 
flow-through system with salt coming out at the other end, and 
using shallow water wetlands and salt management to help 
mitigate it into air quality.
    And, at the Salton Sea that makes sense. It may not have 
made sense at Owens Valley, but at the Salton Sea most of our 
salt is sodium chloride, and sodium chloride creates a hard 
crust, and using wetlands, and some grasses, and salt 
management to mitigating its air quality is going to go a long 
way to addressing the problem here.
    With respect to roles and responsibilities, my honest 
answer is I don't know, and government is complicated, and 
there are all sorts of overlapping responsibilities. What I can 
tell you is, we've got a great relationship with the Federal 
Government, believe it or not, at the local level. There are 
good people at the Bureau of Reclamation, the Salton Sea 
Science Office. I think we are doing the right things in terms 
of studies, understanding the sediments. We are going to take 
the next step of modeling winds and sediments together.
    And, with respect to Salton Sea restoration on its own, 
it's going to take us all rowing in the same direction. I 
believe the Salton Sea Authority has the most at stake among 
the State, local and Federal partners, and in defense of EPA, I 
think one of the things they said rang true, and that is, keep 
decisionmaking as local as possible, because we are the ones 
that are going to be living with the decisions of the water 
districts, the water transfer, the State of California and the 
Federal Government.
    So, the Salton Sea Authority is poised to do that in 
partnership with the Bureau of Reclamation, with the leadership 
of the Congressional Task Force and the State of California, 
and we're taking steps together. We are going to ask the 
Federal Government for money, there's no doubt about it. We 
want an authorized Salton Sea Restoration Project, we want the 
Federal Government very engaged, but we are not asking the 
Federal Government for all of the money. The State of 
California, we are going to ask them, the water transfer 
parties have created some innovative ways of creating some 
money for Salton Sea restoration, about $300 million will go 
into Salton Sea restoration.
    The local community is taking steps to create a 
redevelopment district around the Salton Sea, and we know, for 
those of you that have been out to the Salton Sea, compare 
those property values to where we are sitting today, they are 
incredibly low at the Salton Sea, as we create the vision for 
the Salton Sea we know property values are going to rise, and 
when those property values rise property tax receipts rise, we 
are going to capture some of that and send it back into the 
project.
    We expect water transfer revenue, State bond money, Federal 
authorization, and again, with the adage, ``God helps those who 
help themselves,'' the local community to support restoration. 
It's going to be expensive, it's going to be a billion dollar 
project is my guess, at the same time I'm sure, and this is 
what I heard from all of the testimony, we better deal with 
this now rather than 10, or 20, or 30 years, it's going to get 
more expensive cleaning up the mess than it will to proactively 
restore the Salton Sea.
    With that, that was the best I can do, Congresswoman Bono, 
to describe part of your vision for the Salton Sea.
    Ms. Bono. Thank you.
    Thank you, and I thank you, Mr. Chairman, and I'm happy to 
turn it back over to the chairman at this point in time.
    Mr. Barton. Well, let me reassume the chairmanship briefly, 
just to conclude the hearing.
    I have one final question. There was one gentleman early 
on, I don't know if it was Mr. Wilson or Mr. Crites, that you 
said you needed more monitors or an additional location for the 
monitor. Could you, just very briefly, expound on that.
    Mr. Wilson. Yes, I can. We would like to put more monitors 
down around the Salton Sea to measure, and we'd also like to 
take some of the research that's been done by EPA at Owens Lake 
and replicate that around the Salton Sea, but the district is 
strapped for funds and additional monitors. We've got two in 
the Coachella Valley, we need down----
    Mr. Barton. Is there any controversy about location, or is 
it simply a funding issue?
    Mr. Wilson. It's a funding issue.
    Mr. Barton. So, there's not a controversy about location, 
you just need more money to put more monitors.
    Mr. Wilson. Correct.
    Mr. Barton. Okay.
    Well, let me conclude the hearing.
    Mr. Shadegg. Mr. Chairman?
    Mr. Barton. I'll yield to the gentleman from Arizona.
    Mr. Shadegg. I simply want to raise a brief point of order. 
I want to be assured by you that the testimony of Mr. Theodore 
Schade, of the Great Basin Air Pollution Control District, will 
be submitted. I don't know if it's ever been made a part of the 
hearing, but I'd like it in.
    Mr. Barton. Without objection, so ordered. I should have 
done that at the beginning. I appreciate you bringing that to 
my attention. You definitely are a brilliant lawyer.
    I want to assure all our good Californians here that we get 
lots of input on California issues on my subcommittee. Every 
Republican on the full committee, Ms. Bono, Mr. Radanovich, and 
Mr. Issa, members of the subcommittee, and two of the 
Democrats, Mr. Waxman and Ms. Capps are members of the 
subcommittee. At the full committee there are two additional 
Californians on the democratic side that are also members, so 
we have a total of seven Californians on the full Energy and 
Commerce Committee, five of them serve on the Energy and Air 
Quality Subcommittee.
    I sometimes refer to my subcommittee as the California 
Subcommittee of the Commerce Committee, because of the number 
of Californians. So, we get plenty of input and we certainly 
understand the necessity to maintain a viable economy in 
California, because it is such a large part of our overall 
national economy.
    This is a complicated issue, because it does involve air 
and water quality issues, and it also involves an interaction 
between State and Federal guidelines and regulations, which 
came out today.
    It is not directly impacted by the pending energy bill, in 
terms of the Federal/state role, but that is certainly an issue 
that we need to do some study on, and I will work with 
Congresswoman Bono on that.
    So, I want to thank the local leaders that are all here for 
attending today. You do have the Palm Springs Film Festival 
going on, you could be rubbing elbows with Sidney Poitier, he's 
in town, Kevin Costner is here, Richard Zannick is here, they 
are all holding symposiums in other parts of the city. So, I 
certainly appreciate you folks staying for 2 hours to hear us 
debate this issue. It's not as sexy in terms of the glamour, 
but it's over time probably more important in terms of--I know 
in terms of the health effects, and, hopefully, maybe even in 
terms of the economic effect. So, appreciate your attendance.
    The subcommittee is adjourned.
    [Whereupon, at 12:22 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
  Prepared Statement of Theodore D. Schade, Great Basin Air Pollution 
                            Control District
    My name is Theodore D. Schade. I am a registered professional civil 
engineer and the Senior Project Manager for the Great Basin Air 
Pollution Control District in Bishop, California. I have spent the last 
thirteen years studying dust emissions from the dried beds of Owens and 
Mono Lakes in Eastern California and have helped to develop and 
implement plans to reduce those emissions to levels that meet the 
requirements of the Federal Clean Air Act.
    The issue being discussed at today's hearing is air quality in the 
Coachella Valley and, in particular, the impact that activities at the 
Salton Sea may have on future air quality in the valley. My intention 
today is to draw a few parallels between the Salton Sea and another of 
California's inland saline lakes--the Owens Lake. If these two inland 
seas are as alike as I believe they may be, the decision to divert 
water destined for the Salton Sea could have significant adverse 
impacts on the air quality of the Imperial and Coachella Valleys. So, 
please bear with me while I speak about Owens Lake; you will see that 
so much of what has happened at Owens Lake and what has been learned 
there is applicable to the Salton Sea.
    I have been working on the dust problem at Owens Lake since 
September 1990. Working with other scientists, we have studied the 
geology, hydrology, biology, archaeology, history and of course 
meteorology and air quality of Owens Lake. We worked from the mid-1980s 
until the mid-1990s to understand the lake's physical properties. Since 
then we have worked to develop and now implement a solution to the 
largest single source of particulate matter air pollution in this 
country.
    In the late 1800s, Owens Lake was one of the largest natural lakes 
in California. It is a basin lake, which means it has no outflow; its 
size is determined by the amount of fresh water that flows in every 
year balanced with the amount of water that evaporates. And because 
there is no outlet, it is a saline lake; the minerals that dissolve 
from the rocks of the Sierra and White/Inyo Mountains upstream are 
transported to the lake and then left behind when the fresh water 
evaporates. With a surface area of more than 110 square miles (GBAPCD 
1997, pg. 3-52) and an average depth of 20 to 30 feet, in the 1880s 
Owens Lake supported two steamships transporting silver ingots from the 
mines in the Inyo Mountains destined for the growing city and port of 
Los Angeles (GBAPCD 1997, pg. 3-162). With regard to wildlife, an early 
settler reports that the lake was once ``alive with wild fowl, from the 
swift flying Teel to the honker goose . . . Ducks were by the square 
mile, millions of them. When they rose in flight, the roar of their 
wings . . . could be heard on the mountain top at Cerro Gordo, ten 
miles away . . .'' (Kahrl 1982, pg. 35). Very much like Mono Lake, the 
wildlife at Owens Lake sustained itself on billions of insects; at 
about three times the salinity of seawater, the lake was too salty for 
fish. But, Owens Lake's fate was sealed in 1913 when the City of Los 
Angeles completed construction of the Los Angeles Aqueduct. This marvel 
of modern engineering intercepted the Eastern Sierra snowmelt that 
previously kept Owens Lake full and diverted the water south 223 miles 
to the growing City of Los Angeles. By the mid-1920s, Owens Lake had 
all but disappeared--with no significant input of water and evaporation 
rates of over five feet per year, the lake became a lifeless, 
hypersaline brine pool that, depending on rainfall, varies in size from 
zero to about 40 square miles (GBAPCD 1997, 3-52).
    With the lake nearly gone, over 60 square miles of saline lake bed 
was suddenly exposed. As the salt water evaporated, salt deposits were 
left behind. The mix of salts and fine sediments has created a very 
dynamic surface. Every year, winter rains dissolve the existing salt 
crust and then, as the water evaporates in the spring and summer, a new 
salt crust is formed. If the salt crust is formed during warm weather, 
the salt crystals cement the soil particles together and the surface is 
very hard and resistant to wind erosion. However, if the crust forms 
during the cool or cold weather, an efflorescent crust is formed that 
is very soft and subject to wind erosion (St.-Amand 1987). The 
resulting dust storms of fine salt and soil particles truly have to be 
seen to be believed--the largest dust storms in the U.S. occur at Owens 
Lake (Reheis).
    Before addressing the levels of air pollution caused by the dried 
bed of Owens Lake, it is necessary to briefly address the air pollutant 
known as PM<INF>10</INF>, what the standards are and why it is a health 
risk.
    The term ``ambient air quality'' refers to the atmospheric 
concentration of a specific compound or material present at a publicly-
accessible location that may be some distance from the source of the 
pollutant emissions. During the 1980s, air quality standards for 
particulate matter were revised to apply only to ``inhalable'' 
particles with a size distribution weighted toward particles having 
aerodynamic diameters of 10 microns or less. This is where the term 
``PM<INF>10</INF>'' comes from. The Federal PM<INF>10</INF> Ambient Air 
Quality Standard is set to control concentrations of inhalable-sized 
fine particles less than 10 microns in size, or about one seventh the 
diameter of human hair. The U.S. Environmental Protection Agency uses 
health risk studies to establish the PM<INF>10</INF> standard--the 
standard is based on potential impacts to human health.
    It does not matter what these small particles are made of, the fact 
that they are so small allows PM<INF>10</INF> sized particles to be 
inhaled deeply into and lodge in our lower respiratory tracts. When 
breathing through the nose, few particles with an aerodynamic diameter 
larger than 10 microns reach the lower respiratory tract. People who 
live in or visit areas exposed to elevated levels of PM<INF>10</INF> 
are at risk.
    Federal standards for PM<INF>10</INF> have been set for two time 
periods: a 24-hour average and an annual average of 24-hour values. The 
federal ``National Ambient Air Quality Standards' (NAAQS) for 
PM<INF>10</INF> are:
        150 micrograms per cubic meter (mg/m\3\) as a 24-hour average; 
        and 50 mg/m\3\ as an annual arithmetic mean.
    Exposure to PM<INF>10</INF> levels above the federal standard may 
cause sensitive individuals to experience varying degrees of breathing 
difficulties, some of which may linger beyond the exposure period. In 
some cases, breathing difficulties due to PM<INF>10</INF> exposure may 
cause asthma attacks or even contribute to an individual's death. Other 
health effects, such as eye and nasal irritation, may also occur. The 
most sensitive population includes children, the elderly and people 
with respiratory problems, heart disease or influenza. (SWRCD 1994,  
6.4.2)
    The emissive surfaces that form on Owens Lake make it the largest 
single source of air pollution in the United States. It is the largest 
source in terms of total tons of particulate matter air pollutants 
emitted per year and in terms of the levels of Standard exceedances. 
According to the recently adopted attainment plan for the Owens Valley, 
the Owens Lake bed emits an average of over 80,000 tons or 160 million 
pounds of PM<INF>10</INF> per year (GBAPCD 2003, pg. 4-2). Peak 24-hour 
PM<INF>10</INF> levels as high as 12,038 mg/m\3\ (80 times the 
Standard) have been measured at a publicly accessible hot spring near 
the historic shore of Owens Lake and 3,929 mg/m\3\ (26 times the 
Standard) in the town of Keeler on the eastern edge of the lake bed. 
High exceedances also occur frequently. In 2002, for example, of the 
top thirty 24-hour PM<INF>10</INF> levels measured in the entire U.S., 
28 occurred at Owens Lake--the 26th and 28th highest occurred in El 
Paso, Texas. Similar high exceedances occur at Owens Lake every year 
(GBAPCD 2003, pg. 3-5 and USEPA).
    One of the reasons that Owens Lake is so dusty is that it is one of 
the youngest dry lakes in the world. Its youth is what makes it 
different from the scores of other dry lakes found in the western 
United States. The other dry lakes in the Great Basin have been dry for 
hundreds to thousands of years--they have had time to naturally 
stabilize. Owens Lake has been dry for less than a century--it is still 
in a very dynamic state. Given time, perhaps hundreds of years, Owens 
Lake would stabilize; we see signs of natural stabilization processes 
occurring. However, we cannot wait for hundreds of years--the Federal 
Clean Air Act requires the Owens Lake dust to be controlled by the end 
of 2006 (GBAPCD 2003, pg. 8-4).
    But, I am pleased to report that, due to the hard work of the Great 
Basin Air Pollution Control District and the City of Los Angeles, the 
dust at Owens Lake is in the process of being controlled. In 1998, the 
City of Los Angeles and Great Basin entered into an historic agreement 
that provides for the dust problem to be solved by the federal 
government's 2006 deadline. Based on over a decade of research and 
testing, Great Basin developed a plan that allows Los Angeles to 
install any combination of three control measures on the areas of the 
exposed lake bed that emit dust. The allowable control measures 
include: shallow flooding, managed vegetation and gravel blanket. 
Shallow flooding simply spreads a thin sheet of water over the emissive 
area. Managed vegetation uses techniques developed by Great Basin to 
reclaim the saline soils and establish a protective cover of salt-
tolerant saltgrass (Distichlis spicata) using drip irrigation 
technology. Gravel blanket is a four-inch thick layer of very coarse 
gravel that armors the surface and prevents the capillary rise of salt 
crystals (GBAPCD 2003, Ch. 5).
    All three approved dust control measures attempt to mimic natural 
processes that are occurring on Owens Lake. Natural seeps and springs 
along the historic lakeshore keep the surface wet and non-emissive in 
many small areas. If the natural seep waters are fresh enough, they may 
flush the salts from the soil--this allows saltgrass vegetation to 
establish naturally. Where very coarse soil particles occur, such as 
near the inlet of the Owens River, the fine clay and silt soils are 
blown away and the coarse sand and gravels are left behind which help 
to armor the surface. A number of non-nature mimicking control measures 
have also been tested over the years, including: sprinklers, sand 
fences, soil tilling, soil compaction and many chemical stabilizers. 
These either failed outright or would be unfeasible to implement on the 
enormous scales needed at Owens Lake (GBAPCD 1997, Ch. 7).
    The City of Los Angeles started the first phase of large-scale dust 
control measure implementation in the fall of 2000. Their initial 
project was an 8,600 acre (13.5 square mile) shallow flood project that 
they completed in January 2002. This Phase 1 Project cut lake bed 
emissions by about 30 percent. Because Great Basin's agreement with Los 
Angeles required 16.5 square miles of the lake bed to be controlled 
before the end of 2003, Los Angeles immediately moved on to the second 
phase of the solution. They then constructed a 3,700 acre (5\3\/\4\ 
square mile) project that combines drip irrigated saltgrass with 
shallow flooding. The project was planted with about 60 million 
saltgrass plants which by next year will be large enough to control 
dust to the level necessary to meet the PM<INF>10</INF> Standard. To 
date, Los Angeles has spent about $250 million to control about 19 
square miles (12,300 acres) of emissive lake bed. The final plan for 
Owens Lake, adopted by Great Basin in November 2003, provides for dust 
controls to be constructed on a total of 29 square miles (19,000 acres) 
of lake bed. Los Angeles estimates that the project will cost $415 
million to construct and about $10 million per year to operate (GBUAPCD 
2003, pg. 7-8).
    The Owens Lake dust control effort will also have an ongoing cost 
in terms of water. On average, about 320,000 acre-feet per year (ac-ft/
yr) of water that naturally flowed into Owens Lake is diverted to Los 
Angeles (GBAPCD 1997, pg. 7-2). The Environmental Impact Report 
prepared for the Owens Lake dust control plan estimates that the final 
project will remove about 51,000 ac-ft/yr of water from the Los Angeles 
Aqueduct for use on the lake bed (GBAPCD 1997, pg. 4-45). Therefore, to 
solve the dust problem, Los Angeles will be able to export about 16 
percent less water that they could before they were required to 
implement PM<INF>10</INF> control measures. This water has a monetary 
value. The USEPA recently developed a value for Los Angeles' Owens 
Valley water of $323 per ac-ft (USEPA 2002). Therefore, the annual cost 
of the diverted 51,000 ac-ft/yr is about $16.5 million.
    Finally, to conclude the discussion of Owens Lake, we cannot blame 
the City of Los Angeles for making the Owens Lake disappear. When they 
decided to sacrifice Owens Lake and the environment in the Owens Valley 
for the growth of the emerging City of Los Angeles, even President 
Theodore Roosevelt acknowledged that the concerns of the residents in 
the Owens Valley were ``genuine,'' but their concerns ``must 
unfortunately be disregarded in view of the infinitely greater interest 
to be served by putting the water in Los Angeles'' (Kahrl 1982, pg. 
140). One hundred years ago, even President Roosevelt felt that the 
environment in a remote, sparsely settled valley was not something to 
be protected and preserved when it interfered with the continued growth 
of one of the nation's great cities. However, our priorities as a 
nation have changed since 1906 when Roosevelt wrote those words. 
Protection of our environmental resources has become a priority, 
especially in remote, sparsely settled places. And we could blame Los 
Angeles if they continued to refuse to fix the problem they have 
caused. But they finally have not refused; they finally acknowledge 
that the air pollution from Owens Lake is caused by their water 
diversions and they have begun a costly and enormous undertaking to 
solve their problem.
    Now to the Salton Sea. I believe much of what has happened at Owens 
Lake will happen at the Salton Sea, if the Sea's water supply is simply 
diverted like Owens Lake's. I have been invited down to the Salton Sea 
a number of times over the past three years by the Salton Sea Authority 
and the Salton Sea Science Office to specifically look at the sea and 
its potential to emit dust if its level is lowered. I have also 
reviewed much of the literature relating to potential dust emissions 
and have read the sections addressing air quality at the Salton Sea in 
the Imperial Irrigation District's Water Transfer Project EIR/EIS. I 
also sat on a panel of experts in 2002 that authored a White Paper 
titled ``The Potential for Fugitive Dust Problems at the Salton Sea If 
Water Levels are Lowered Significantly from Current Conditions.'' What 
I have seen at the Salton Sea and what I have read in the EIR/EIS 
concerns me. Although there are a number of differences between the two 
lake basins, I believe there are enough similarities to justify my 
concern. Both Owens Lake and the Salton Sea contain unimaginable 
quantities of salt--we
    speak of these quantities in terms of millions of tons. As the 
waters evaporate enormous salt deposits are left behind. Although 
theory says the type and mix of salts at the Salton Sea should be more 
stable than at Owens, there are enough unstable salts to, at certain 
times and under certain conditions, cause the type of emissive surfaces 
that form at Owens to form at the Salton.
    At Owens Lake the City of Los Angeles' water diversions caused 
about 70 square miles (45,000 acres) to be exposed. Only about 40 
percent of this area, or 30 square miles (19,000 acres), emits dust. 
However, these 30 square miles of exposed lake bed make Owens Lake the 
largest single source of PM<INF>10</INF> air pollution in the country. 
I understand that over 100 square miles (68,000 acres) of the Salton 
Sea's bed is expected to be exposed as water is diverted from the 
basin. Even if only a fraction of the newly exposed sea bed is 
emissive, there is the potential for many thousands of acres of dusty 
sea bed.
    Although it is the intent of the Clean Air Act that all our air 
should be fit to breathe, only about 40,000 people live in the sparsely 
populated Eastern Sierra areas impacted by dust emissions from Owens 
Lake. This is not the case with the Salton Sea basin. Hundreds of 
thousands of people living in the Imperial and Coachella Valleys could 
be impacted by dust storms from the exposed Salton Sea bed. In 
addition, many thousands of acres of valuable agricultural lands could 
be impaired by blowing salt and sand.
    The Water Transfer EIR/EIS admits that the proposed transfer would 
cause thousands of acres of sea bed sediments to be exposed and that 
this newly exposed area would have the potential for dust suspension. 
But it goes on to say that the many variables ``prevent any reasonable 
quantitative estimate of emissions and associated impacts from the 
exposed shoreline.'' It then goes on to state that, rather than a 
scientific quantitative estimate, a ``qualitative assessment'' will be 
provided. A ``qualitative assessment'' was inappropriate for the 
California State Water Board during their Mono Lake decision process; 
it was also inappropriate for the California Air Resources Board and 
the USEPA during the development of the air plans for Mono and Owens 
Lakes. In those cases, extensive research, testing and computer 
modeling allowed us to reduce the uncertainties in the many variables 
that affect dust emissions. With uncertainties reduced, we were able to 
construct air quality models that closely matched actual conditions. 
There is absolutely no reason why such an effort cannot take place for 
the proposed Salton Sea sediment exposure. Even a crude modeling effort 
would give an indication of the potential magnitude of the problem.
    An issue completely ignored in the EIR/EIS air quality discussion 
is the possibility of air toxics that could be contained in the dust. 
Elevated levels of PM<INF>10</INF> are considered to be a health risk 
not because of what the dust is made of, but rather because the very 
small particles lodge deeply in our lungs. Toxic materials in the dust 
only add to the health risk. Elevated levels of naturally-occurring 
arsenic and cadmium in the sediment at Owens Lake increase the lifetime 
cancer risk from those toxics by 24 per million (GBAPCD 2003, pg. 3-8). 
Sediment analyses at the Salton Sea indicate that dust emissions there 
could potentially contain many more toxic materials, including 
pesticides and uranium (LFR Levine-Fricke 1999).
    At the risk of oversimplifying the many complicated factors that 
contribute to cause lake sediment dust storms, I would like to present 
a crude ``quantitative'' estimate of the potential for dust at the 
Salton Sea. At Owens Lake about 70 square miles of lake bed is exposed. 
About 40 percent of the exposed lake bed or 30 square miles emits 
PM<INF>10</INF> (GBAPCD 2003, Ch. 4). As mentioned above, under the 
worst case, about 100 square miles (68,000 acres) of Salton Sea bed 
would be exposed when water is diverted from the sea. Because of 
different soil and salt conditions than at Owens, maybe only 30 percent 
of the exposed area at Salton might emit dust. This is still 30 square 
miles (19,000 acres) or an area equal to that at Owens Lake that will 
emit PM<INF>10</INF>. Also assume that in the best case, for all the 
unsubstantiated reasons presented in the EIR/EIS, an acre of sediment 
at the Salton Sea is only one-tenth (10%) as emissive as an acre at 
Owens Lake (this could be wishful thinking). This means that instead of 
annual emissions of 80,000 tons, the annual emissions would be 8,000 
tons or 16 million pounds of PM<INF>10</INF> emitted every year. In 
most cases, PM<INF>10</INF> sources greater than 100 tons are 
considered to be major sources of air pollution. With regard to peak 
24-hour concentrations, if the peaks at the Salton Sea were also only 
one-tenth as bad as Owens Lake, levels as high as 1,200 mg/m\3\ could 
be expected. This is eight times higher than the Federal 24-hour 
Standard of 150 mg/m\3\. No one can say that the water diversions will 
not cause a serious air quality problem at the Salton Sea without much 
more study, analysis, research, modeling and testing. And if this work 
indicates that there could be an air quality problem, a plan to take 
care of it needs be in place before water diversions begin. Otherwise, 
the health of many thousands of people will be at risk.
    In conclusion, for the past 13 years while working at Owens Lake, I 
have often told myself that we cannot blame the City of Los Angeles or 
even president Roosevelt for allowing Owens Valley water to be diverted 
and causing the largest single source of PM10 air pollution in the 
country. Those decisions were made over 90 years ago by well-
intentioned leaders. I knew that such disastrous decisions would never 
be made in this day and age. I could not believe that our decision-
makers today would even possibly let it happen again. In my opinion as 
an expert in the air quality problems caused by the diversion of water 
from saline lakes, the diversion of water from the Salton Sea to the 
City of San Diego will cause some level of air pollution in the Salton 
Basin. Although there are many unanswered questions, the answers to 
which would allow an accurate assessment of the magnitude of the 
problem, the project proponents and decision-makers have not seriously 
deal with the potential for serious air pollution. They tell us that 
there may be significant impacts, yet they make no attempt to quantify 
the problem or even suggest solutions to what could become an even 
bigger problem than Owens Lake. Everyone involved with the Salton Sea 
needs to admit that they could be involved in creating an enormous 
environmental catastrophe and commit the time and money necessary to 
determine the magnitude of the problem and implement the necessary 
solutions.

                               References

    GBAPCD 1997. Great Basin Unified Air Pollution Control District, 
``Owens Valley PM<INF>10</INF> Planning Area Demonstration of 
Attainment State Implementation Plan Final Environmental Impact 
Report,'' State Clearinghouse Number 96122077, July 1997.
    GBAPCD 2003. Great Basin Unified Air Pollution Control District, 
``Owens Valley PM<INF>10</INF> Planning Area Demonstration of 
Attainment State Implementation Plan, 2003 Revision,'' November 13, 
2003.
    IID 2002. Imperial Irrigation District, ``Imperial Irrigation 
District Water Conservation and Transfer Program Draft EIR/EIS,'' State 
Clearinghouse Number 99091142, January 18, 2002.
    Kahrl 1982. Kahrl, William L., Water and Power, University of 
California Press, Berkeley, California, 1982.
    LADWP. Los Angeles Department of Water and Power, Board of Water 
and Power Commissioners Agendas, various dates 2000 through 2002.
    LFR Levine-Fricke 1999. ``Synthesis Document of Current Information 
on the Sediment Physical Characteristics and Contaminants at the Salton 
Sea, Riverside and Imperial Counties, California,'' March 3, 1999, 
prepared for Salton Sea Authority.
    Morris, pers. comm. Personal communication with Ralph Morris, 
Environ Corp. Novato, California, March 29, 2002.
    Reheis, in press. Reheis, Marith C., ``Dust deposition down wind of 
Owens (Dry) Lake, 1991-1994: Preliminary findings,'' Journal of 
Geophysical Research. Abstracted in ``Owens (Dry) Lake, California: A 
Human-Induced Dust Problem'' at: http://geochange.er.usgs.gov/sw/
impacts/geology/owens/
    St.-Amand 1987. Saint-Amand, P., C. Gaines and D. Saint-Amand, 
``Owens Lake, an ionic soap opera staged on a natric playa,'' 
Geological Society of America Centennial Field Guide--Cordilleran 
Section, 1987.
    SWRCB 1994. State of California State Water Resources Control 
Board, ``Decision 1631--Decision and Order Amending Water Right 
Licenses to Establish Fishery Protection Flows in Streams Tributary to 
Mono Lake and to Protect Public Trust Resources at Mono Lake and in the 
Mono Lake Basin,'' September 28, 1994.
    USEPA. United States Environmental Protection Agency, ``AIRSData 
Monitor Values Report--United States Air Quality Monitors for 
Particulate Matter,'' Internet electronic database at: www.epa.gov/air/
data.
    USEPA 2002. United States Environmental Protection Agency, letter 
from Ms. Janet Parrish to Mr. Jerry Gewe, Assistant General manager-
Water, Los Angeles Department of Water and Power regarding the Lower 
Owens River Project, February 27, 2002

[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
                                   <all>
</pre></body></html>
